<html>
<title> - OVA-POLLUTION IN THE POTOMAC: EGG-BEARING MALE BASS AND IMPLICATIONS FOR HUMAN AND ECOLOGICAL HEALTH</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 OVA-POLLUTION IN THE POTOMAC: EGG-BEARING MALE BASS AND IMPLICATIONS 
                    FOR HUMAN AND ECOLOGICAL HEALTH

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 4, 2006

                               __________

                           Serial No. 109-186

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-340                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                         Benjamin Chance, Clerk
                         Michael Galindo, Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 4, 2006..................................     1
Statement of:
    Grumbles, Benjamin, Assistant Administrator for the Office of 
      Water, Environmental Protection Agency; Mark Myers, 
      Director, U.S. Geological Survey; Susan Haseltine, 
      Associate Director of Biology, U.S. Biological Survey; and 
      Gregory Masson, Chief, Branch of Environmental 
      Contaminants, U.S. Fish and Wildlife Service...............    16
        Grumbles, Benjamin.......................................    16
        Myers, Mark..............................................    29
    Murray, Charles, general manager, Fairfax Water; Andrew D. 
      Brunhart, Washington Suburban Sanitary Commission; Thomas 
      Jacobus, general manager, Washington Aqueduct; Joseph 
      Hoffman, executive director, Interstate Commission on the 
      Potomac River Basin; Ed Merrifield, executive director/
      riverkeeper, Potomac Riverkeeper, Inc.; and Erik Olson, 
      director of advocacy, Natural Resources Defense Council....    56
        Brunhart, Andrew D.......................................    61
        Hoffman, Joseph..........................................    90
        Jacobus, Thomas..........................................    84
        Merrifield, Ed...........................................   101
        Murray, Charles..........................................    56
        Olson, Erik..............................................   107
Letters, statements, etc., submitted for the record by:
    Brunhart, Andrew D., Washington Suburban Sanitary Commission, 
      prepared statement of......................................    63
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     9
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Grumbles, Benjamin, Assistant Administrator for the Office of 
      Water, Environmental Protection Agency, prepared statement 
      of.........................................................    19
    Hoffman, Joseph, executive director, Interstate Commission on 
      the Potomac River Basin, prepared statement of.............    92
    Jacobus, Thomas, general manager, Washington Aqueduct, 
      prepared statement of......................................    86
    Merrifield, Ed, executive director/riverkeeper, Potomac 
      Riverkeeper, Inc., prepared statement of...................   103
    Murray, Charles, general manager, Fairfax Water, prepared 
      statement of...............................................    59
    Myers, Mark, Director, U.S. Geological Survey, prepared 
      statement of...............................................    31
    Olson, Erik, director of advocacy, Natural Resources Defense 
      Council, prepared statement of.............................   110
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    13


 OVA-POLLUTION IN THE POTOMAC: EGG-BEARING MALE BASS AND IMPLICATIONS 
                    FOR HUMAN AND ECOLOGICAL HEALTH

                              ----------                              


                       WEDNESDAY, OCTOBER 4, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Cummings, Van Hollen, 
and Ruppersberger.
    Also present: Representatives Gilchrest and Moran.
    Staff present: David Marin, staff director; Larry Halloran, 
deputy staff director; Keith Ausbrook, chief counsel; A. Brooke 
Bennett, counsel; Michael Galindo and Benjamin Chance, clerks; 
Ali Ahmad, staff assistant; Phil Barnett, minority staff 
director/chief counsel; Robin Appleberry, Krista Boyd, and 
Alexandra Teitz, minority counsels; Earley Green, minority 
chief clerk; and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. Good afternoon, and welcome to this 
oversight hearing on egg-bearing male fish in the Potomac 
River. Recent Washington Post stories on this topic have 
spawned a great deal of interest, and justifiable concern, 
about the implications of this odd phenomenon for the 
environment, for the fish and for us.
    Today we will hear from those who watch over what goes 
into, and what comes out of, our vital regional waterway, the 
Potomac River.
    First, let us understand just how far and wide the Potomac 
reaches. If you look at the green line on this map, you will 
see that the river runs from West Virginia into the Chesapeake 
Bay. Its uses are as varied as the communities through which it 
meanders. Humans use it for boating and recreational fishing. 
Fish and wildlife use it as their habitat. And local utilities 
use it to provide drinking water. In other words, what happens 
in the Potomac doesn't affect only one species of fish in 
Washington, DC. It has repercussions for all the life that 
thrives on its flow.
    So, what about these fish that scientists have found in our 
river? Do they have three heads? Three eyes? Are they growing 
legs? No. That is not the case at all. The findings by the U.S. 
Geological Survey and the Fish and Wildlife Service are far 
subtler, but troubling nevertheless. What they and other 
researchers have found is egg yolk and immature ova being 
produced in male reproductive organs. That's what is known. 
Still unknown are the exact causes, pathways and mechanisms of 
this unusual biology activity.
    Some believe the fish could be reacting to organic chemical 
compounds such as human estrogen from processed sewage or 
animal estrogen from agricultural run-off. There is also the 
possibility the reaction has been triggered by manmade 
chemicals in pesticides and cosmetics, or it could be a 
combination of both. Those questions are still under 
investigation, and we look forward to hearing from Department 
of Interior representatives about their research and findings 
to date.
    So, what about the drinking water coming from the Potomac? 
How safe is it, and who is responsible for keeping it safe? 
This seemingly straightforward question has a complicated 
answer. In 1974, Congress passed the Safe Drinking Water Act, 
requiring the Environmental Protection Agency to set standards 
and testing requirements for contaminants. Those requirements 
are then implemented by the States. Because it runs through so 
many jurisdictions, the Potomac presents an interesting and 
challenging case. Testimony by our witnesses today will shed 
some light on the difficulties of navigating through the 
twisting rapids and rocky shoals of Federal and State water 
quality regulations.
    The good news is that many water utilities meet or exceed 
current EPA standards. But the menu of chemicals and 
contaminants finding their way into our waters is constantly 
changing, and the science of detecting and eliminating those 
contaminants, frankly, has to play catch-up.
    EPA, along with other Federal agencies, has been studying 
chemicals and compounds thought to be causing the intersex fish 
phenomenon. We will hear from them, and from local water 
utilities, on how they advance the science and maintain 
vigilant testing regimes to keep harmful compounds out of our 
water.
    At the end of the day, researchers have yet to determine 
what is scrambling the bass eggs. The preliminary conclusion as 
of now is that the fish ova-pollution probably has no impact on 
human health. Still, as the chairman of the House committee 
with jurisdiction over the District of Columbia, and as the co-
chair of the Chesapeake Bay Watershed Task Force, I and many 
others want to know more. We need to be certain these sensitive 
biological markers are being monitored and studied so we can 
detect and eliminate potentially harmful substances from the 
river ecosystem before they cause downstream environmental or 
human health effects.
    I would like to thank our witnesses for being here today, 
and we look forward to hearing from each of you.
    I would ask unanimous consent that the distinguished 
gentleman from the Commonwealth of Virginia Mr. Moran be 
allowed to participate in today's hearing.
    Hearing no objection, it is so ordered.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T0340.001
    
    [GRAPHIC] [TIFF OMITTED] T0340.002
    
    [GRAPHIC] [TIFF OMITTED] T0340.003
    
    [GRAPHIC] [TIFF OMITTED] T0340.004
    
    [GRAPHIC] [TIFF OMITTED] T0340.005
    
    Chairman Tom Davis. Mr. Cummings.
    Mr. Cummings. Thank you so much, Mr. Chairman. I thank you 
for holding this vitally important hearing to investigate the 
discovery of abnormalities in fish in the Potomac Watershed and 
possible implications for human and ecological health.
    The Potomac River supplies about 75 percent of the drinking 
water consumed by almost 4 million residents of the 
metropolitan Washington region, which includes the District of 
Columbia, Montgomery County, Arlington and Fairfax County. I 
think we can all agree on the need to make sure that this water 
is clean and safe for human consumption.
    Any safety breach of the Potomac water supply has the 
potential to create a public health crisis of great magnitude. 
So, with this in mind, I am terribly concerned about the recent 
discovery that bass in the Potomac are displaying significant 
abnormalities.
    Specifically, researchers found that more than 80 percent 
of the male smallmouth bass they sampled were growing eggs, and 
7 of 13 male largemouth bass had unusual feminine 
characteristics. As you know, Mr. Chairman, scientists study 
the health of fish and other similarly sized species to 
determine the health of the ecological system in which they 
reside. That is why many have taken the recent findings with 
regard to smallmouth and largemouth bass in the Potomac as an 
indication that problems exist in the entire ecosystem, and 
possibly in the human population as well.
    Researchers attribute the fish abnormalities to pollution 
in the waters in the form of endocrine disruptors, which are 
chemicals that interfere with human and animal biological 
processes. Endocrine-disrupting compounds include natural and 
synthetic hormones, pesticides and compounds used in plastics.
    In 1998, the U.S. Geological Survey noted that at least 45 
synthetic chemicals have been identified as potential endocrine 
disruptors. Unfortunately, we do not know which of these 
chemicals or which combination of chemicals is creating the 
problem we are seeing in the Potomac. We similarly do not know 
with great certainty what the impact on humans will be. The 
effects of human exposure to endocrine disruptors are not well 
understood, but some have raised concern that exposure could 
lead to reproductive abnormalities or cancer.
    Faced with this possibility, we cannot afford to waste time 
in investigating and addressing the problem that has been 
identified, but I understand that this has not been the case. 
The EPA has not yet implemented its Endocrine Disruptor 
Screening Program 10 years after Congress mandated that it do 
so, and 7 years after the statutory deadline. This is simply 
inexcusable.
    I look forward to hearing from our witnesses today on how 
we can address this problem in an effective and efficient way. 
Again, Mr. Chairman, I thank you for calling this hearing.
    Chairman Tom Davis. Thank you, Mr. Cummings.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T0340.006

[GRAPHIC] [TIFF OMITTED] T0340.007

    Chairman Tom Davis. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. I thank you for your 
statement. Mr. Cummings and my concerns reflect those that both 
of you have stated. It does seem that we are talking about 
endocrine-disrupting chemicals. There was a book written by a 
woman several years ago that brought to light this phenomenon, 
but I didn't know that it was going to come so close to home in 
the Potomac River.
    The problem is that this may very well be the tip of an 
iceberg. Clearly we have a situation that merits a good deal of 
attention, and that's why a hearing like this is so important 
to see what kind of attention is being given it by the experts.
    There was some written testimony provided by Dr. Myers of 
the U.S. Geological Service, a survey, and they--samples from 
95 different emerging contaminants, drug, hormones, detergents, 
disinfectants, insecticides, fire retardants and so on. He 
found that at least one of those chemicals was present in 80 
percent of the streams in this area, and in 75 percent of the 
streams there was a mixture of those potentially toxic 
chemicals.
    Now, they all have different reactions, but there's been 
very little research on what happens when different chemicals 
are put together, and I think we need a lot more research to 
see what the combined reaction might be of some of these 
chemicals that are so omnipresent in our water supply that we--
I am afraid that the direction in which we are going is sort of 
like a ship without a radar.
    We don't know which specific chemicals are responsible for 
this--our situation with regard to the fish. We don't know what 
constitutes a safe and/or a harmful concentration of chemicals, 
and we don't know what we can do in order to reduce our 
exposure to them. But until we do know the answers to those 
questions, the public's health could well be jeopardized.
    So I think this is a very serious issue, an important 
hearing, and I appreciate you, Mr. Chairman, for calling the 
hearing. And for my two very good friends and colleagues on 
either side of us, they came all the way down from Baltimore to 
attend it, so it shows they recognize the importance of it.
    Chairman Tom Davis. Thanks very much. Mr. Ruppersberger. 
Thanks very much for coming down from Baltimore.
    Mr. Ruppersberger. The Government Reform Committee is the 
investigative arm, and there are a lot of things that we look 
at, but when it comes to an issue like this, it's important 
because of our water supply, because of how it affects us and 
how it affects our way of life.
    This discovery of intersex fish in the Potomac is clearly a 
problem. What we do know is that small and largemouth bass with 
male organs and female characteristics as an example of 
carrying immature eggs is a problem in the region. We do know 
this is caused by endocrine disruptors in the water, and 
endocrine disruptors are found in everything from chemicals to 
keep barnacles off boats, perfume and plastics.
    Basically we can find this everywhere and in everything. 
These chemicals can lock onto receptors and animals and force 
the organism to react differently. What we are finding is that 
male fish are being affected by displaying female traits. Now, 
I am concerned about this because not only does it show our 
local watershed environment is in distress, but I am concerned 
for the safety of our drinking water. It is still unclear about 
the effects of endocrine disruptors on people. There is 
evidence that ingested amounts of these chemicals can slow the 
development of younger people, but may have no effect on 
adults.
    Intersex fish have been found around the country. Because 
of this concern last year the EPA convened a meeting in Las 
Vegas to start to look into a large source of endocrine 
disruptors from personal pharmaceutical products. It gathered 
scientists, academia, industry and government together to look 
at the scope of the problem and how it is affecting our Nation. 
I know some water systems have already employed reverse osmosis 
water treatment systems to pull out and collect organic 
chemicals and endocrine disruptors. I applaud those steps, and 
hopefully we can encourage local water facilities to do the 
same.
    The way I see it, we must first secure the water supply; 
second, find the source of the pollutants; and establish a 
system to address the problem. These are the opportunities. 
These are the opportunities to see environmentalists and 
consumer safety, government and industry work together on 
solutions. My concern is that we always seem to have fixes for 
the tail end of solutions. I really hope that we address the 
source of the problem.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T0340.008

[GRAPHIC] [TIFF OMITTED] T0340.009

    Chairman Tom Davis. I would ask unanimous consent that the 
distinguished gentleman from the State of Maryland Mr. 
Gilchrest be allowed to participate in today's hearing as well. 
Without objection.
    Mr. Gilchrest.
    Mr. Gilchrest. Mr. Chairman, thank you for allowing me to 
sit on the dais today and for the other Members from Virginia 
and Maryland who show a keen interest in this particular issue.
    I don't think we probably should be surprised at this 
issue. I think what we have done for the past 100 years, 
through human activity, and with the development and discharge 
of persistent toxic chemicals, is turning much of our land 
area, our water area, into the kind of habitat that the Earth 
hasn't seen for several billions of years, and what happens 
under those circumstances is that some of the most primitive 
life forms that in the subsequent aeons of time have evolved 
become more pervasive.
    What I would like to know, through the course of your 
testimony--and I appreciate all of you for coming today--is do 
you have a list of the fairly well-known persistent toxic 
chemicals that are used or have been used in the manufacturing, 
industrial sector for many, many decades now, and which of 
those persistent toxic chemicals are similar to the natural 
process of reproduction?
    I guess the question I am asking is do you have a list of 
persistent toxic chemicals that we know have some similarity to 
the kind of molecules in the endocrine system that is the 
reproductive system or the process of reproduction? Can those 
persistent toxic chemical molecules that are similar to the 
molecules in the reproduction system mimic those natural 
molecules and cause this kind of a situation, this kind of a 
problem?
    The landscape around the waterways has been deforested. We 
have filled in wetlands. We have paved over areas. We took a 
rifleshot for these persistent toxic chemicals right into our 
water bodies. We have seen this now for more than a decade, 
perhaps for 20 years, in reptiles and fish all over the world, 
whether it's the Everglades, the Thames River, the Susquehanna 
River.
    We also know in certain areas not only because of 
agriculture, not only because of pesticides and herbicides, not 
only because of chlorine, but we also know it's in sewage 
sludge. So it should be no surprise that we have a pretty 
pervasive problem that because of human activity has not been 
compatible with nature's design.
    Once we recognize that, it takes a lot of will, political 
will, community will, will from people that are making these 
policies or evaluating these situations, it will take a 
concerted effort, scientifically and politically and human 
activity, whether we are dealing with sewage or persistent 
toxic chemicals mimicking the reproductive system in the 
endocrine system--whatever it takes we need to make human 
activity much more compatible with nature's design if there is 
going to be any in the decades or centuries to come.
    But I do want to thank the chairman for holding this 
hearing, and I look forward to the testimony of the witnesses.
    Chairman Tom Davis. Thank you, Mr. Gilchrest.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I want to thank 
you and my colleagues for organizing the hearing and for the 
witnesses that will be testifying today. I don't have a lot to 
add to what's been said, but I do believe that we need to 
address this issue and get to the bottom of it quickly.
    I think too much time has gone by since Congress originally 
asked the EPA to look at this issue. I am sure we will hear 
testimony as to exactly what is being done at EPA and the other 
agencies that deal with the drinking water in this region.
    But this is clearly an alarming picture where we have seen 
the spread of the impact of the endocrine inhibitors on fish 
populations.
    I guess there was a first indication of this many years 
ago. It seemed to have been isolated. That seems to have been 
spread. There are obviously a couple of questions that we need 
to answer for the public. One is exactly what are the causes of 
this? No. 2, what are all the sources of this? Obviously the 
major question we all have is what is the impact on human 
health and the public health?
    So I hope we can begin to get to the bottom of those 
questions. As Mr. Cummings said, and others refer to it, the 
Congress did ask EPA some time ago to identify some of these 
chemicals and regulate them, if needed. As I understand it, we 
were supposed to have a program in place by 1999. We have had 
lots of studies and advisory groups. We haven't moved forward 
on this issue. I know it's a complicated issue. I know the 
science is difficult.
    On the other hand, it is a question that, you know, has 
potentially huge widespread impact. So I think we do need to 
address this with greater urgency.
    Chairman Tom Davis. We now move to our first panel of 
witnesses. We have the Honorable Benjamin Grumbles, no stranger 
to this committee, the Assistant Administrator of the Office of 
Water for the Environmental Protection Agency; the Honorable 
Mark Myers, the new Director of the U.S. Geological Survey, 
just sworn in, welcome and congratulations; Dr. Susan 
Haseltine, who is the Assistant Director of Biology for the 
U.S. Geological Survey. Thank you, Doctor, for being with us 
today; and Dr. Gregory Masson, Chief, Branch of Environmental 
Contaminants for the U.S. Fish and Wildlife Service.
    It's our policy that we swear in witnesses before you 
testify.
    [Witnesses sworn.]
    Chairman Tom Davis. My understanding is Mr. Grumbles and 
Mr. Myers are going to testify, and you are going to be our 
answerers on some of the questions; is that right, Doctors? 
Thank you. Welcome.

 STATEMENTS OF BENJAMIN GRUMBLES, ASSISTANT ADMINISTRATOR FOR 
  THE OFFICE OF WATER, ENVIRONMENTAL PROTECTION AGENCY; MARK 
   MYERS, DIRECTOR, U.S. GEOLOGICAL SURVEY; SUSAN HASELTINE, 
  ASSOCIATE DIRECTOR OF BIOLOGY, U.S. BIOLOGICAL SURVEY; AND 
 GREGORY MASSON, CHIEF, BRANCH OF ENVIRONMENTAL CONTAMINANTS, 
                 U.S. FISH AND WILDLIFE SERVICE

                 STATEMENT OF BENJAMIN GRUMBLES

    Mr. Grumbles. Thank you, Mr. Chairman and all the members 
of the committee. It's an honor to be here to talk about a most 
pressing subject and representing EPA. I am Ben Grumbles, 
Assistant Administrator for the Office of Water.
    Mr. Chairman, I want to assure you that EPA is going to 
continue to be proactive and protective on this issue. Our 
mission is to protect the public health and the environment, 
and specifically, when it comes to water, it's to work together 
in a collaborative way to rely on the best possible science and 
to work to make sure that America's waters are clean, safe and 
secure.
    So what I am going to talk about in the testimony, which 
goes into great detail, but the summaries that I am going to 
provide to the committee is to focus on the statutory and 
regulatory framework; also highlight some of the research 
activities and some specific activities working with our 
partners at the Federal, State and local level in the Potomac 
Watershed, part of the greater Chesapeake Bay Watershed.
    Mr. Chairman, the first thing I want to mention is that the 
key to being protective of public health and the environment is 
to be proactive, and the Clean Water Act is one of the first of 
several regulatory, statutory tools that we have.
    Now, under the Clean Water Act, it's all about keeping the 
water clean and safe; and, specifically, one of the items under 
the Clean Water Act we take very seriously is setting water 
quality criteria, science-based criteria, for aquatic life and 
also human health.
    The agency is proactive on that front. We are establishing 
new criteria. Just in the last year and a half we established 
criteria for monophenols and tributyltin based on the end 
points, the impacts on reproductive developmental systems.
    We continue to emphasize in using that tool, the standard-
setting tool under the Clean Water Act, the importance of 
keeping our eyes focused on emerging contaminants such as 
pharmaceutical and endocrine-disrupting systems.
    I also want to highlight the Safe Drinking Water Act, a 
critically important statute to ensure that both source water 
protection is carried out and that the product--whether it is 
the Fairfax Water Authority or the Washington aqueduct, 
continues to provide drinking water that is clean and safe for 
this region.
    Under the Safe Drinking Water Act, there's several 
critically important tools that are relevant in the context of 
this situation. One of them is that the U.S. EPA carries out a 
6-year review process. That is a process where at least every 6 
years we review existing maximum contaminant level to see if 
they need to be revised.
    I can assure you that as we go through that process, the 
Agency is very much aware of the increasing evidence, the 
widespread nature of these endocrine disruptors that are 
occurring in water systems, and using the tools under that 6-
year review process.
    Another key tool is the contaminant candidate listing 
system, where we periodically list new contaminants for 
regulation under the Safe Drinking Water Act. We are taking 
very seriously this increasing evidence of endocrine-disruptor 
chemicals and looking at that CCL process as an opportunity.
    The other one is the unregulated contaminant monitoring 
rule where we require systems to monitor for unregulated 
contaminants. That is a great opportunity, and we are using 
that to require increased monitoring for these emerging 
contaminants.
    The other key statutory programs involve FIFRA and the 
process--of TSCA of reviewing potential new chemicals, and we 
use that. That's a very important part of the EPA strategy to 
nip in the bud potential problems and to be preventive and 
proactive.
    The Endocrine Disruptor Screening Program, Mr. Chairman, I 
am here to tell you that we are working to implement that 
provision put in the 1996 act, that there are technical 
challenges, it's cutting-edge science. I am also here to tell 
you that we will work harder and faster in making more progress 
on that front.
    But I am also here to say that is by no means the only tool 
that we have in our tool box, and we are using a wide variety 
of tools to help get the job done and be proactive and 
protective.
    On the research front, research priority for the U.S. EPA 
is to carry out more field studies and lab work on the causes 
and effects and occurrence of these endocrine-disrupting 
chemicals and to develop better technologies so that they can 
be treated, and the potential for harm is reduced dramatically.
    The last thing, Mr. Chairman, I just want to mention is 
that the key to having a sustainable and successful effort on 
something as important both locally and nationally as this is 
to work through a partnership and collaboration. So within the 
Potomac Watershed, we, with other partners at the State and 
local level, are part of a source water protection partnership 
for the Potomac, and obviously one of the priority issues in 
that context are these emerging contaminants, these 
pharmaceuticals and other forms of endocrine-disrupting 
customers. So we look forward to doing a lot more work on that 
front.
    Mr. Chairman, I thank you for your attention and that of 
all the colleagues on this important subject. I would be happy 
to answer question when appropriate.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Grumbles follows:]

    [GRAPHIC] [TIFF OMITTED] T0340.010
    
    [GRAPHIC] [TIFF OMITTED] T0340.011
    
    [GRAPHIC] [TIFF OMITTED] T0340.012
    
    [GRAPHIC] [TIFF OMITTED] T0340.013
    
    [GRAPHIC] [TIFF OMITTED] T0340.014
    
    [GRAPHIC] [TIFF OMITTED] T0340.015
    
    [GRAPHIC] [TIFF OMITTED] T0340.016
    
    [GRAPHIC] [TIFF OMITTED] T0340.017
    
    [GRAPHIC] [TIFF OMITTED] T0340.018
    
    [GRAPHIC] [TIFF OMITTED] T0340.019
    
    Chairman Tom Davis. Mr. Myers, thank you for being with us.

                    STATEMENT OF MARK MYERS

    Mr. Myers. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to present the Department of 
Interior's science regarding the characteristics of the fish in 
the Potomac River.
    But, I would also like to thank you for allowing me to 
bring some real experts to the subject and hopefully can answer 
some questions. I will try to keep my comments brief and to the 
backbone so that you have more time to get to the details you 
are interested in.
    The term intersex or intersexual characteristics describes 
a range of abnormalities in which both male and female 
characteristics are present within the same fish. The 
occurrence of intersexual fish has been related to endocrine 
disruptors that affect the reproductive system. Endocrine 
disruptors also interfere with the natural balance of hormones 
that regulate development, reproduction, metabolism, behavior 
and the internal state of living organisms.
    The presence of this abnormal condition has been used as an 
indicator to exposure to estrogenic chemicals that have been 
documented in a variety of wild fish species in rivers and 
estuaries around the Nation and in other countries.
    The USGS has found such fish in the Colorado, the Columbia, 
Mississippi, Missouri, Rio Grande, Las Vegas Wash and many 
other locations in the country.
    The USGS has studied fish health for many years. Recently 
the USGS has documented fish and a number of fish health 
problems in the Chesapeake Bay and its watershed associated 
with changing water quality and habitat conditions. One of the 
major findings is the presence of intersexual characteristics 
in smallmouth and largemouth bass in the Potomac River.
    In 2003 and 2004, in response to fish kills and increased 
observations of external sores and wounds on smallmouth bass 
and other species, the West Virginia Department of Natural 
Resources and the USGS began to initiate fish health 
assessments at selected sites in the Potomac River. In 2005, 
samplings expanded to additional sites in the Shenandoah and 
Potomac Watersheds specifically to look at character areas 
associated with intersexual characteristics.
    Preliminary findings suggest that intersex fish are 
widespread throughout the Potomac and Shenandoah Rivers, but at 
a much lower incident rate in other rivers in West Virginia.
    Potential causes for intersex fish include chemical 
contamination and changes in temperature regime and habitat. 
Current research on intersexual characteristics has related 
numerous endocrine-disruptor chemicals to the reproduction 
effects in fish. These chemicals include previously banned 
chemicals such as DDT, chlordane, natural and anthropogenic 
hormones, herbicides, fungicides, industrial chemicals and an 
increasing use of chemicals including personal care products 
and pharmaceuticals.
    Potential sources of these endocrine disruptors include 
human and animal wastes, leachates from landfills, agriculture 
and individual use of herbicides, pesticides and even 
atmospheric deposition.
    A limited amount of information is available on the 
distribution of these endocrine disruptors in the Chesapeake 
Bay and major river basins. During 1992 to 1996, the USGS 
conducted extensive sampling in the Potomac and Susquehanna 
River basins. Chlordane, DDT and PCBs were detected in 
streambed sediments and aquatic tissues in the Potomac basin.
    In addition the USGS has taken samples from the Potomac 
basin as part of several national surveys of chemicals of 
emerging and environmental concern since 1999, which include 
endocrine disruptors.
    Data from these samples from 1999 and 2000 indicate at 
least one of these chemicals was found in at least 80 percent 
of the streams with mixtures of chemicals occurring at 75 
percent of the sites.
    There is clearly a need to further document the extent of 
the intersexual characteristics from the Chesapeake Bay and 
other watersheds. Identifying the chemicals that are impacting 
the fish, their sources, fate and transport will help managers 
develop solutions for the problem.
    The USDA, in partnership with the Fish and Wildlife Service 
and other agencies, are conducting studies to discuss some 
aspects of the Potomac River basin. Field studies--field 
collections for these studies were completed in mid-June 2006, 
and all samples are currently being analyzed. The final report 
of these studies is expected in spring of next year. What we 
have learned there may be applied to other areas, other 
watersheds.
    In summary, Interior bureaus have been carrying out and 
will continue field collections and analysis in the Potomac 
River Watershed. We look forward to continued collaborative 
efforts with State, Federal and private partners to find better 
ways to understand impacts of endocrine-disrupting chemicals in 
the Nation's fish and wildlife resources.
    Thank you, Mr. Chairman and members of the committee, for 
the opportunity to present this testimony. Again, I have with 
me two real experts on the subject, Dr. Haseltine from my shop 
and Dr. Masson from the Fish and Wildlife Service. We would be 
happy to answer any questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Myers follows:]

    [GRAPHIC] [TIFF OMITTED] T0340.020
    
    [GRAPHIC] [TIFF OMITTED] T0340.021
    
    [GRAPHIC] [TIFF OMITTED] T0340.022
    
    [GRAPHIC] [TIFF OMITTED] T0340.023
    
    [GRAPHIC] [TIFF OMITTED] T0340.024
    
    [GRAPHIC] [TIFF OMITTED] T0340.025
    
    [GRAPHIC] [TIFF OMITTED] T0340.026
    
    [GRAPHIC] [TIFF OMITTED] T0340.027
    
    [GRAPHIC] [TIFF OMITTED] T0340.028
    
    [GRAPHIC] [TIFF OMITTED] T0340.029
    
    [GRAPHIC] [TIFF OMITTED] T0340.030
    
    Chairman Tom Davis. Let me start, Mr. Grumbles, with you. 
EPA has been criticized for the time it has taken for the 
Endocrine Disruptor Screening Program to get up and running. I 
think it was established 10 years ago in 1996. It's certainly a 
long time to be waiting, especially when you consider that the 
issue is of such importance to human health. It seems that it 
is several years overdue from the NRDC lawsuit and 
congressional mandate. Why has it taken so long?
    Mr. Grumbles. Mr. Chairman, a couple of things. One is this 
is cutting-edge science, as Congressman Van Hollen mentioned. 
It's complex. It requires validated assays. That's the concept 
in the statutory provision, which means not just EPA, but many 
others involved need to make sure that multiple assays, not one 
single type of test, but that multiple types of tests, are 
used, and that they can be produced and reliable.
    Mr. Chairman, the solutions are driven by the science. We 
are committed to making an accelerating process under this 
program, getting it right so that it is scientifically 
defensible. So it's been a combination of things.
    We are here to tell you that we are going to make 
significant progress. We are going to be looking to take the 
first tests under the Tier 1 screening part of the program by 
the end of next year.
    Chairman Tom Davis. Do you have enough money for it? Has it 
been funded appropriately?
    Mr. Grumbles. I think the challenge has been less of a 
funding challenge and more a scientific challenge. The 
Endocrine Disruptor Screening and Testing Advisory Committee 
spent several years, a good use of time, coming up with 
recommendations and ideas. There have been some false starts in 
some of the assays identified, or approaches, but it has really 
been less of the funding and more of the difficult, complex, 
scientific issues.
    Chairman Tom Davis. You know, basically this is a new field 
of science with no validated test systems. Why couldn't you use 
existing data or tests?
    Mr. Grumbles. Well, we are committed to doing a couple of 
things, using the tools that we have, but continuing to put a 
priority within the Office of Research and Development on 
developing new tools, new methodologies and new approaches. So 
we are fully committed to pushing as best we can, without 
sacrificing scientific integrity, the development of these 
validated assays and identifying priority areas and developing 
implementation procedures.
    Chairman Tom Davis. Just so we have a better sense, how 
long should it have taken or should it take, for a new 
screening program to start producing results from the time 
Congress requires, to the time it is implemented?
    Mr. Grumbles. Mr. Chairman, I think from--our objective has 
been to get it done as quickly as we can in collaboration with 
the other organizations in the scientific community. So, it's 
something that we realize--it is one very important tool. We 
have many other tools that we are using, regulatory tools, to 
get at those most critical end points using the Safe Water 
Drinking Act and the Clean Water Act, but we really do see the 
screening program as an important one.
    We are confident now that important discussions have been 
occurring from the scientific community we will make progress 
on it.
    Chairman Tom Davis. Let me switch to Mr. Myers and his 
team, then I will ask you to answer this, too. I think the 
question for everybody, we are trying to get a sense of how 
great the human health concern is of the chemicals in the 
Potomac Watershed. That's really the underlying question. Do 
you have any sense of how the results of the test could be 
extrapolated from fish who spent 100 percent of their lives in 
the water to humans?
    Also, in your written statement, Mr. Myers, you indicated 
that similar concerns have been raised over polar bears and 
panthers, which are probably better comparisons to humans than 
to fish. Is your agency able to shed some light on human health 
based on these studies?
    Mr. Myers. Mr. Chairman, I will say a few words and then 
turn it over to the other panel, particularly with the mammals 
to Dr. Masson.
    But the first part of any rigorous scientific analysis is 
to fully understand, A, the suite of chemicals that are present 
at the various locations where you see the occurrences. So you 
need a robust enough water and sediment sampling program. The 
second part is enough physical evidence in the fish, enough 
sampling, an adequate sampling over a wide range of conditions. 
The other component is you want to try to reproduce the same 
situations that are occurring in the laboratory so you can 
isolate and demonstrate which chemicals are actually causing 
this.
    Again, we are looking at a wide suite of chemicals here. We 
are looking at very small concentrations of chemicals, parts 
per billions or trillions in some cases. This is extremely 
dilute, which makes it difficult.
    Another component is the difficulties--we are dealing with 
some very fancy manufactured chemical compounds, some of them 
very small scale. Again, the techniques to develop and detect 
these things in very small concentrations, the ability to 
isolate which indicators are happening and which combination of 
naturally occurring events in the water temperature, turbidity, 
etc., along with the chemical combination is actually causing 
the changes.
    So, again, it takes a tremendous amount of work and a 
tremendous amount of----
    Chairman Tom Davis. What you are saying, it doesn't take 
much to cause these?
    Mr. Myers. It appears--now, again, the linkage between 
which chemicals are causing it and the other environmental 
conditions for each species has to be sorted out.
    With that, I will turn it over to, maybe, Dr. Masson to 
discuss it in the large mammals and on the other species that 
we are seeing intersexual characteristics.
    Mr. Masson. Thank you, Dr. Myers.
    First of all, I appreciate the opportunity to be here, and 
hopefully some of my testimony will help you.
    I am Dr. Greg Masson. This is my area of expertise. I 
started working on endocrine disruption about 17 years ago in 
Florida on the alligators and did some work on the Florida 
panther, so I have a keen interest in the subject matter. With 
the Fish and Wildlife Service we also have a keen interest, and 
we work very well with USGS and EPA on these matters.
    As to the contaminants of concern and the potential for 
endocrine-disrupting effect and the relationship to humans, we 
obviously deal with the animal components and the effects on 
the animals, and any interpretation for humans would be left to 
those agencies to deal with human health.
    However, I can elaborate a little bit and say that 
endocrine systems within vertebrate animals are essentially the 
same; that we have the same basic hormones as humans, as do 
cattle, horses, alligators, fish, etc.; so that there are 
similar systems, and these inferences may or may not be brought 
by those health agencies.
    These are contaminants of concern that generally last a 
short time, are extremely difficult to measure in the animal 
systems. And the biomarkers that Mr. Grumbles had been 
referring to are new techniques and are only advisable and only 
testable in those animals that can lay eggs generally.
    Mammal systems are much more difficult systems to evaluate, 
obviously, and the bass system is different also.
    Chairman Tom Davis. Thank you very much.
    Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Dr. Masson, maybe you are the appropriate person to answer 
this question, just a followup to the chairman's question. 
First of all, is it OK to eat these fish?
    Mr. Masson. That is an excellent question.
    Mr. Cummings. Thank you.
    Mr. Masson. And it is extremely difficult because these 
compounds are extremely difficult to measure. We have discussed 
that, and I think the appropriate people that would answer that 
would be those people within the States that put out the health 
advisories for the consumption of fish.
    But as far as the chemicals concerned and their physical 
properties, they are not known to bioaccumulate essentially, so 
they do not generally last a long time.
    Mr. Cummings. Let me ask you a different way. If the fish 
up there was put on a plate and fried and put in front of you, 
would you eat it?
    Mr. Masson. The bass that is exhibited there?
    Mr. Cummings. That one right there.
    Mr. Masson. Without having dissected it and not having 
looked at the microscopic examination, yes.
    Mr. Cummings. You would eat it. The reason why I ask that 
is because I think we are all concerned. We all understand that 
this is our watch, and we here, sitting up here, I know you 
all, too, share the concern that we want to make sure that 
people live in a safe environment. I look at what just happened 
with spinach. People all over the country were throwing away 
spinach just 2 or 3 weeks ago, and probably rightfully so, I 
mean, because it just set off alarm bells.
    I guess what we are just trying to get to is to break it 
down so that we will have an understanding as to how, as the 
chairman said, all of this affects the people that we 
represent. We certainly are concerned about the ecosystem, and 
so it seems to me--I don't want us to--I want us to try to get 
down to the basics.
    You know, when we found that there was a problem with 
spinach, and I am not trying to say that this is any way 
analogous, but it's the only thing I can think of for the 
moment, all kinds of alarm bells went off.
    I am wondering at what scale, on a scale of 0 to 10, when 
we see fish that have the characteristics of two sexes, I 
mean--I mean, a scale of 1 to 10--does some kind of an alarm 
bell go off? It's been 10 years now, and I understand what you 
are talking about, how complicated it is. We are talking about 
chemicals, we are talking about combinations. I am wondering on 
a scale from 0 to 10, 10 being superalarm, red alert, where 
does this fall? Can somebody answer that for me?
    Mr. Grumbles. Congressman, I would like to take a shot at 
answering your questions. They are excellent questions. I think 
everybody wants to know is the water safe to drink, are the 
fish safe to eat?
    Based on what we know, the water is safe to drink. After it 
has been treated by the systems and in compliance with the Safe 
Drinking Water Act, it's safe to drink the treated water from 
the Potomac.
    The fish, are the fish safe to eat? They should be safe to 
eat if there's not an advisory, if there's not a local fish 
advisory warning against eating the fish for some particular 
contaminant. The question is, though, which we all are 
acknowledging, this is an emerging area, these endocrine-
disruptor chemicals. We really need to learn more.
    For me, on a scale of 1 to 10, an 8, in the sense of a need 
to continue to be proactive; to accelerate more of the science, 
the studies about not just occurrence and the sources, but the 
impacts on humans. We don't have a lot of information about 
impacts, direct threats to humans.
    But you are right, fish are sentinels. They are warning 
signs, and we need to take it all very seriously and be 
proactive and get more science under our belt.
    Mr. Cummings. Let me say this, because my time is running 
out. Let me just say this: This is my concern. We have an area 
in Baltimore where people, families grew up, and they later 
found out that there was a large--a lot of cancer, 
disproportionate amount of cancer, and now they basically have 
gotten rid of everybody in that area.
    Now, when those people were there, everybody is saying this 
is a wonderful, a swell place to live. I don't want us looking 
back 10 years from now saying that we did not move with the 
appropriate urgency, and then people have gotten cancer. I can 
imagine a woman looking at this hearing right now possibly 
saying to herself, if she is thinking about having a family, a 
husband and wife saying, well, wait a minute now, wait a 
minute, if that's what it is doing to fish, then how does that 
affect me and my children yet unborn?
    Those are basic quality-of-life issues that I think we all 
have a duty to try to protect the people who we are working 
for. I guess that's what I am trying to get it at, Mr. 
Chairman. Any of you may want to comment on that briefly?
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Would you like to say anything.
    Mr. Myers. Congressman, we take the issue very seriously. 
We will do whatever we can to support in the scientific 
community. I think a couple of--there are multiple levels of 
issue here. The first is how is the ecosystem itself being 
affected, how is this affecting the stability and the 
population of the fish, and then how does that work up the food 
chain to the other parts of the community, including the 
humans?
    So if you start out, one of the difficulties in this 
problem is that we are seeing very low concentrations of 
something that is very persistent and not coming off a single 
point source. We are looking at multiple different types of 
chemicals. We are looking at a very complex relationship 
between the chemicals. Again, they don't accumulate, so it is 
not like heavy metals or something that accumulates in 
increasing amounts in the soil; they are just there in a low-
level, continuous way, multiple chemicals, multiple sources, 
very hard thing to regulate.
    Again, it's a wide suite of chemicals. So, again, we are 
trying to get basic knowledge on this. It's not just in the 
Potomac, but whether we have documented it in many other 
watersheds as well. So it is a nationwide issue. We are 
struggling with it. Again, hopefully, through some good 
science, we can help start to answer your questions.
    Chairman Tom Davis. Thank you very much.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Yesterday at the dock at Turner's Creek, I bought eight 
eels, pretty large-size eels, 2\1/2\ feet long, pretty thick, 
for $20, which is a pretty good price for the amount of meat I 
was getting.
    That is indicative of up and down the Chesapeake Bay. 
People go to hundreds of places around their community--a 
waterman comes in with catfish or perch or rockfish or oysters 
or whatever, and someone at the dock purchases it, or it goes 
to market.
    So I think the sense of urgency, to wrap this up and have 
some understanding of whether or not you are going to eat that 
fish on your plate or be concerned about eating that fish on 
that plate, whether it has mercury contamination, persistent 
toxic chemicals, I think we really need to get moving on the 
Endocrine Disruptor Screening Program as quickly as possible.
    The questions I have, the source of these complex 
chemicals, I guess, would cover the gamut of sewage, 
industrial, air deposition, agriculture, stormwater runoff, any 
of those. They are all potential sources in the sewage--is it 
sewage alone, or is it chemicals mixed with the sewage as it 
gets processed?
    Mr. Grumbles. Congressman, a couple of things. One is you 
are absolutely right. There's a wide array of different 
sources. Our research and development office is developing a 
brand-new information system to be able to track and identify, 
do some real detective work on the possible causes.
    Mr. Gilchrest. So the question about sewage, and I know----
    Mr. Grumbles. We have evidence that outfalls at sewage 
treatment plants--that there are endocrine-disruptor chemicals 
or that there are pharmaceuticals. It's a combination.
    Mr. Gilchrest. So those endocrine disruptors, in the sewage 
in particular, it's been mentioned here a couple of times, they 
are short-lived. Are there any endocrine disruptors that are 
persistent, that would be considered persistent toxic 
chemicals, and what might they be?
    Ms. Haseltine. There are persistent endocrine disruptors, 
but there are many more that are not persistent, and I must say 
that in some of them, once they get into the biota, we don't 
really know that much about how long they persist, because they 
tend to be modified so much and conjugated. That is one of the 
reasons that EPA is having such a hard time with this screening 
process.
    Mr. Gilchrest. Can you give me an example of what some of 
the persistent endocrine disruptors are?
    Ms. Haseltine. There are traditional organochlorine 
pesticides that we deal with all the time, and also many of the 
anthropogenic hormones that we use in veterinary.
    Mr. Gilchrest. How do they actually disrupt the endocrine 
system? You have these very various persistent chemicals. You 
have short-lived chemicals. When they get into the fish or the 
alligator or the panther or the polar bear because of their 
exposure, is it molecule to molecule? Does the chemical 
molecule mimic the natural endocrine molecule; is that how it 
works?
    Ms. Haseltine. There are a couple of theorized delivery 
mechanisms. The most researched is that they adhere to the 
receptors that we all have in our bodies for these hormones, so 
they mimic what natural hormones would do.
    Mr. Gilchrest. So if a molecule can mimic the natural 
hormone, is there a level or a degree of exposure that could 
affect the endocrine system in a fish versus a human?
    Ms. Haseltine. There are some laboratory results which go 
to that issue, but there is not enough information for me to 
give you a definitive answer on that.
    Mr. Gilchrest. Is there a timeframe where a definitive 
answer might be understood?
    Ms. Haseltine. I think all I could say to you is we are 
working as hard as we can to come up with these. You know, one 
of our challenges is that we would like to be able to look at 
mixtures of these chemicals, because that is what we are 
finding in the environment, and that makes our job harder.
    Mr. Gilchrest. Is that what has happened in the Everglades 
or the Great Lakes or some of these other areas you have 
described used as a benchmark to see what the short-lived 
chemicals are, what are the persistent chemicals, to have some 
clear understanding of the amount of exposure a fish needs or a 
mammal needs?
    Ms. Haseltine. I would say that we are still at the stage 
where we are looking at the general distribution and the 
environment. We don't have a handle on that system adequately. 
Perhaps EPA has more information.
    Mr. Grumbles. No, that's true. It's one reason why this 
area is a priority for the agency in getting more information 
and research. Your questions are good ones.
    I just wanted to emphasize something. You were talking 
about the fish, and EPA works very closely with FDA, whether 
it's commercially sold fish, which is more of the FDA 
prerogative or area of expertise and jurisdiction, or a 
recreationally caught fish.
    Fish are such an important part of the diet and balanced 
diet, and there are so many benefits. One of the important 
aspects of this hearing and getting out more information is 
identifying what information do we have, to what extent are 
there health risks?
    We don't have a lot of information that these intersex fish 
are presenting a problem or a risk to humans. When we find--and 
are finding--or USGS is throughout the country--incidences 
where there are endocrine-disrupting chemicals or traces of 
pharmaceuticals, we are not finding high amounts of it, so it's 
not directly translating in and a threat to human health. But 
it is a real warning sign, and that's why it is helping to 
define the research agenda and the pace of the research.
    Mr. Gilchrest. Thank you very much. I also would wish with 
your partnership that you are talking about, local, State and 
Federal, that you have a strong partnership with the Corps of 
Engineers Enforcement Division for protecting forestlands and 
wetlands. That's some of the sources of these problems.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Mr. Moran.
    Mr. Moran. Thank you, Chairman Davis.
    Well, Dr. Masson, first I want to ask you about a book that 
I read many years ago, it's just coming back to mind now. It 
was touted at the time as kind of a followup to Silent Spring. 
It was a book about endocrine disruptors. What was the title 
and the name of the author?
    Mr. Masson. I presume you are talking about the book 
written by Theo Coburn on chemically induced alterations in 
animals in 1992?
    Mr. Moran. No, it had a much sexier title than that.
    Mr. Masson. There was another one called Earth in the 
Balance?
    Mr. Moran. No, the one by Theo Coburn. I was just trying to 
remember the title--Our Stolen Future. Thank you.
    Mr. Masson. Yes, the more recent book, I am sorry.
    Mr. Moran. I asked a lot of people about that in EPA and 
the like, and they almost to a person dismissed it, saying that 
she was exaggerating, that she was finding individual 
situations that didn't have much relevance to the larger 
picture and so on. Looking back on that, it must have been at 
least 10 or 12 years, has much of what she said been borne out 
to have both relevance and accuracy today?
    Mr. Masson. With hindsight being 20/20, there are some 
accuracies that she has, and there are some parts of her book 
that obviously were fictional, and it can be interpreted in 
that manner. But as Mr. Grumbles said, on a scale of 1 to 10, 
using animals as his sentinel for all of our concern for the 
human and the American people, you know, a 7 is appropriate, 
that this is a concern for them. And some of the scenarios that 
she had depicted in her book, Our Stolen Future, can be 
explained, just like a lot of the quotes from Nostradamus can 
be explained in that regard, but, you know, enough that they 
can be corroborated.
    Mr. Moran. Mr. Grumbles, we have had our run-ins before, 
interior appropriations on water issues, but I find you to be a 
professional, and I have been impressed by you.
    I have to say, though, that I am not impressed by the 
Environmental Protection Agency. It just seems that overall, 
that Agency looks for every excuse it can find to delay 
implementation of regulations designed to protect the public 
health.
    This is another case in point. I don't blame you because 
you weren't around in 1996, but this was 10 years ago. As the 
chairman has pointed out, EPA was instructed to make 
recommendations on how to develop a screening and testing 
program for endocrine disruptors. That was timely, it was 
important, it should have been done.
    Two years later, there was a notice outlining the program. 
Then a year later it said that there was a scientific advisory 
panel review; 1999 you settled--EPA settled with the Natural 
Resources Defense Council, agreeing to use its best effort to 
complete validation and so on. In 2000, there was a progress 
report which couldn't have outlined any progress.
    So this is a bipartisan condemnation of EPA, at least in 
terms of the endocrine disruptors program. That might be 
somewhat heartening.
    But, boy, in the last 5 years, there's been even less 
action. There was a validation subcommittee formed in 2001. 
There was a report to Congress in 2002 on progress, of which 
there really was none. Then there was, in December 2002, a 
notice on proposed chemical selection for the initial round of 
screening; and, then, again, there was another notice in 
September 2005 on chemical selection approach for initial 
screening. There has not been one chemical screened, as far as 
I can see.
    Now, can you tell me, any chemicals that have gone through 
this screening process as was instructed to you?
    Mr. Grumbles. Congressman, I respectfully disagree with 
your opinion.
    I can tell you that the Agency is being as proactive and 
protective as we can. The science needs to drive the solutions, 
and when it comes to the screening program, as I said, we are 
working to accelerate the pace of that program.
    Now, I can say there has been progress. We have worked, we 
have set up the two-tier system. We are not just dismissing, 
Congressman, when you mentioned the dismissing concerns, far 
from dismissing concerns about various types of chemicals.
    The Agency has embraced the notion that it needs to focus 
on more than just estrogen and on more than just pesticides; 
that it needs to focus more on human impacts, but also 
ecological. We are committed to work with you and with others 
to get more results and to do it more quickly.
    Mr. Moran. I mean, those are nice words, Mr. Grumbles, and 
those are kind of the words that we got in response to similar 
questions. But in this Washington Post article that brought 
this to light, it said that even though in 1996 Congress 
required EPA to develop a screening program to identify which 
chemicals are endocrine disruptors, 10 years later the Agency 
hasn't tested a single chemical. Is there one chemical you have 
tested?
    Mr. Grumbles. Under that program that is being developed, 
no. And we will, by the end of next year, once we get the 
protocols right. But under other authorities, Congressman, we 
had been very proactive and aggressive, and we will continue to 
be, and we will look for new opportunities for some of the 
tools that I have mentioned, the Safe Drinking Water Act, the 
contaminant candidate listing process for new and emerging 
chemicals.
    I can give you many instances, and I would be happy to 
submit it for the record, where the professionals at EPA, and 
the research office, as well as in the pesticides and the water 
offices, are being proactive. We have studies under way to 
identify the occurrence of pharmaceuticals and the causes and 
effects.
    So I would disagree with the characterization, 
respectfully, and say this is an emerging area, there's 
cutting-edge science that is required, and we are committed to 
working with our other Federal and non-Federal partners to give 
this important subject significant attention.
    Mr. Moran. Fortunately for you my time is up, Mr. Grumbles.
    Chairman Tom Davis. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and again, thank 
you all for your testimony.
    Mr. Grumbles, you mentioned in your testimony that the fish 
were kind of like sentinels, and I think other people said that 
they're like canaries in the coal mine, so I think when we 
begin to see these disturbing effects in the fish, we really 
need to take a more urgent look at it, and I think you 
understand that, and just to piggy-back a little on that, the 
other half of that is the urgency with which the science is 
pursued and the amount of effort and time, and I guess I would 
just ask whether or not the EPA has yet identified the list of 
chemicals that it intends to test.
    Mr. Grumbles. I know that we've got some priority. We've 
got a--very much part of our work plan and agenda is to 
identify priority chemicals/pharmaceuticals. We have identified 
priorities, under our Research Office Program, specific 
pharmaceuticals and endocrine disruptors, and in terms of the 
screening program, that's very much a part of the protocols and 
the tiering process that we're going to use.
    Mr. Van Hollen. OK. Could you provide the committee with a 
list of the----
    Mr. Grumbles. I'd be happy to provide you with the 
materials that we've got. Yes, sir.
    Mr. Van Hollen. Good. Is atrazine on that list?
    Mr. Grumbles. I don't know the answer.
    We do have--to answer your question on atrazine, which is a 
chemical that is coming up quite a bit in the discussions over 
endocrine disruptors, we do have a standard for that. The 
Agency has established a standard criterion for atrazine under 
the Clean Water Act as a regulatory tool.
    Mr. Van Hollen. Right, but I want to ask you. Is that one 
of the tests, one of the validating tests, you're looking at 
for atrazine? Let me ask you about that.
    As I understand, the test is 3 parts per billion; is that 
correct? That's the current test? That's the water quality test 
for atrazine?
    Mr. Grumbles. Three parts per billion?
    Mr. Van Hollen. That's my understanding. Is that accurate?
    Mr. Grumbles. Do we know--I think--can we confirm that for 
you and provide it?
    Mr. Van Hollen. Yeah. The reason I ask that is--look, the 
European Union has taken a look at some of these issues and 
pesticides, and they've decided that they are dangerous to the 
human health. In fact, the European Union has banned atrazine. 
Now atrazine has been found recently in the Potomac River 
waters. I have here the Washington Aqueduct, the U.S. Army 
Corps of Engineers' analysis from 2005. Last April, they found 
the atrazine level to be 0.5 parts per billion, which is under 
the EPA standard, but the question is whether or not the EPA 
standard is adequate, because my understanding is that--
research tests that have been performed, once that unfolds, 
show that you can have a significant negative impact at 0.1 
parts per billion. Are you familiar with that research?
    Mr. Grumbles. Personally, I'm not. I am familiar with the 
work that the Pesticides Office is doing to regulate atrazine, 
and identify, with the Research Office.
    Mr. Van Hollen. I guess the question is--there have been a 
couple studies. There were studies on humans, actually, in 2003 
and 2006 on atrazine which actually showed that there was a 
significant impact on men exposed to atrazine at lower levels 
than the current standard, and so I guess my question is here's 
something where the European Union has already said, look, we 
think this is dangerous enough to the public health that we're 
going to ban it. So it would seem to me that we would be taking 
a really hard and urgent look at this, and my question is, 
given the fact that it has been found in the Potomac River and 
other rivers in the country, what are you doing to followup on 
both the tests that were on animals and on humans that show 
that the 0.3 part-per-billion test was not sufficient to 
protect the human health, and from the perspective of the 
Europeans, they said we're not even--we're not going to mess 
with this. Let's just not allow it.
    Mr. Grumbles. A couple comments, Congressman.
    I'm going to need to get back to you on some of the 
specific things because I can't describe each and every one, 
and need to coordinate with staff on that, and will be happy to 
provide that to you and the other committee members.
    The other thing, though, is the basic point about 
pesticides. I know that the Agency recognizes--and certainly, 
the Research Office--our research priorities are focused very 
much on pesticides and synthetic hormones, and pesticides is 
one of the priority areas.
    I also know that we are coordinating on an international 
front, providing information and also sharing, learning lessons 
and also giving lessons about different approaches on this 
cutting-edge science, and pesticides is very much an important 
part of it; so are some of the other--the pharmaceuticals and 
various endocrine disruptor chemicals.
    One of our messages, Congressman, is we are going to pursue 
aggressively regulatory tools and research, and stewardship is 
one item, and one of the messages that we are providing to 
homeowners and to citizens is that the toilet is not a trash 
can, and as more and more pharmaceuticals are in the 
marketplace and are being disposed of, you need to think twice 
before you flush it down the toilet, and that is not advisable, 
that there needs to be other ways to manage with these 
pharmaceuticals as we learn more about their impacts on the 
environment and potentially on human health.
    Mr. Van Hollen. Right. Do we look--Mr. Grumbles, do we look 
carefully at the decisions made by the Europeans and learn from 
the studies and conclusions they've drawn? I guess my question 
is pretty simple here.
    I mean are the Europeans wrong to ban it or are they more 
protective of human health?
    Mr. Grumbles. I don't know. I can't speak to the merits of 
banning or not banning on that. I know that inclusivity and 
sharing with other jurisdictions is important. We know about 
the U.K. and their pilot studies on endocrine disruptors, and 
we will continue to work to see--to learn more and also to 
share our knowledge.
    Mr. Van Hollen. Thank you.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Just two quick followups. EPA testing isn't just limited to 
the screening program, though, right?
    Mr. Grumbles. That's correct.
    Chairman Tom Davis. So it's fair to say the EPA is doing 
nothing?
    Mr. Grumbles. No, that's not fair to say.
    Chairman Tom Davis. OK. OK. Talk about the screening 
program. Talk about the other things you're doing.
    Mr. Grumbles. Well, I can speak to several.
    Particularly as Congressman Gilchrest mentioned in raising 
very valid questions about sewage in the mixtures and 
components of sewage, one of the actions that the Agency is 
taking is a national pilot study of pharmaceuticals and 
personal care products in fish tissue, also a targeted national 
sewage sludge survey to obtain national estimates of source 
concentrations for about 50 chemicals. We're also doing a 
monitoring study of 30 emerging contaminants as well as 60 
conventional pollutants discharged from sewage treatment 
plants. We've had sampling at four sites, and more sites will 
be selected, and we're really working with the utilities 
because they are in the front lines on this front when it comes 
to doing studies about the occurrence, and also our Research 
Office is providing funding for technologies to more 
effectively treat and remove the pharmaceuticals or other types 
of endocrine-disrupting chemicals at the utility itself.
    Chairman Tom Davis. OK. Any more questions?
    Mr. Gilchrest. One quick one, Mr. Chairman.
    Is there any connection or potential connection between 
this Endocrine Disruptor Program, all of the screening that's 
being done and a broader look at TMDLs?
    Mr. Grumbles. ``TMDLs'' are Total Maximum Daily Loads that 
the Congressman is very much aware of because it's essentially 
a term in the Clean Water Act for developing a pollution budget 
for waterways that are not meeting their water quality 
standards and where more needs to be done and more action needs 
to be taken.
    I think it's very useful to connect the dots between 
emerging contaminants and also the tools that we use and our 
State partners use in accelerating the restoration of impaired 
waterways. A lot of the TMDLs that have been developed to 
date--and it's well over 20,000 TMDLs across the country--have 
dealt with the conventional pollutants, but there are certainly 
an emerging number that deal with the toxic pollutants that are 
persistent and bioaccumulative ones, and as we gather more 
information on the scientific front about pharmaceuticals or 
other types of endocrine-disrupting chemicals, we are going to 
be providing that information and integrating it into the State 
Clean Water Act regulatory programs, and the TMDL is a perfect 
way to identify an action plan to reduce loadings that are 
causing the impairment.
    Mr. Gilchrest. Thank you, and a lot of these issues dealing 
with persistent toxic chemicals affecting the ecological 
systems that we all rely upon, sometimes there's international 
arrangements or international protocols or international 
collaboration on this research.
    Is there any of that with this?
    Mr. Grumbles. Yes, sir, and I'm--I will also commit to 
provide more information to the committee from our Office of 
Research and Development and our International Affairs Office 
about the international collaborations. I think this is a--this 
is not just a local matter. As USGS and others have indicated, 
there is a growing number of sites where these types of 
intersex fish problems are being noticed. We are detecting 
endocrine-disrupting chemicals and pharmaceuticals, for 
example, and it's not limited to the United States. It's in 
other parts of the world, and that's a key part of the strategy 
is to gather more information and to share it globally.
    Mr. Gilchrest. Thank you.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. Yeah, just a quick question because this is 
obviously a big area.
    My understanding is there are about 87,000 different 
chemicals in commercial use, and I guess the question I would 
have for you is do you have any idea how many or what 
percentage of those chemicals find their way into the drinking 
water, No. 1, and No. 2, how many of those do we test for, and 
that's why I'm curious as to, you know, whether you've put 
together a list and how you've prioritized, because there are 
so many chemicals out there that we're clearly not testing for. 
We need to come up with, you know, a rational way of deciding 
how we're going to go about this and try and obviously cover as 
many as possible.
    So do you have any idea, of the approximately 87,000 
chemicals that are commercially produced, how many, percentage, 
find themselves into the waterway, No. 1, and No. 2, how many 
do we test for?
    Mr. Grumbles. Well, your point about prioritizing and 
having targeted research and prioritizing the chemicals, we are 
focusing on the endocrine programs on this issue on pesticides 
and also on high production volume chemicals.
    When it comes to the Safe Drinking Water Act and the 
regulatory program, as you know, Congressman, we rely very much 
on the unregulated contaminant monitoring rules where we have--
we're working on a third rule regulation that identifies 
specific unregulated contaminants for monitoring by utilities.
    I'm very excited about the future of the contaminant 
candidate listing program under the Safe Drinking Water Act 
because that is a mechanism where we do the best we can to 
identify out of those thousands of chemicals, unregulated 
chemicals, which ones present the greatest health risk, which 
ones have the greatest degree of occurrence, which ones will 
present the most meaningful opportunity for reducing risk to 
human health.
    So that process will continue. I don't have a specific 
number for you, Congressman, you know, in comparison to the 
87,000, but we are going to be using and will continue to use a 
screening process to identify priority chemicals for regulation 
under the Safe Drinking Water Act.
    Mr. Van Hollen. OK. Thank you.
    Chairman Tom Davis. Mr. Moran, do you want to----
    Mr. Moran. Thank you, Mr. Chairman.
    I want to congratulate Dr. Myers on his confirmation by the 
Senate. Congratulations, and it's nice to see Dr. Haseltine 
here with us as well.
    We cited the study that you had done, Dr. Myers, and you've 
submitted it as written testimony. Is there other histological 
evidence of these endocrine disruptors being present in streams 
in the area?
    Mr. Myers. Thank you for that question, Congressman.
    I know I've made the studies--we've put some of the 
references in the testimony, but I will defer to Dr. Haseltine, 
who can talk about maybe a few of the key studies that have 
gone on.
    Ms. Haseltine. As I understood your question, you wanted to 
know the number of studies that have been done in this one----
    Mr. Moran. No, just other--we focused on the one that the 
doctor cited in the testimony from Dr. Myers. Are there others 
corroborating that?
    Ms. Haseltine. Yes. There are endocrine disruption studies 
that we're carrying out and have carried out all over the 
country with various species of fish, and from the Mississippi 
drainage to the Colorado, we are looking at this--for this 
phenomenon and at this phenomenon in association with water 
quality and other environmental changes.
    Mr. Moran. No. I understand you're looking at it, but there 
were some pretty startling discoveries in the Potomac, for 
example. There weren't smallmouth bass, so you looked at 
largemouth bass, and you found that 70 percent of them or 
something had eggs in them. So this was a pretty widespread 
phenomenon among the bass.
    Has that been corroborated by other studies that haven't 
been mentioned in this, particularly in this immediate area?
    Ms. Haseltine. No. I would not say that it has at those 
levels, but I think we need to be cautious in interpreting that 
because this study that showed those high incidences was 
looking specifically below sewage outfalls, and most of our 
studies more generally sample fish in the environment. So, 
while, you know, obviously this needs followup, I would say 
that the sampling design would lead to more----
    Mr. Moran. But the initial conclusion would be that it's 
coming from the sewage. They live in the----
    Ms. Haseltine. There certainly is a correlation.
    Mr. Moran. There is a high correlation, and when they are 
swimming in the area that is immediately impacted by the sewage 
outflow, there--the endocrine disruptors cause them to be what 
we call ``intersex fish,'' and that was 70 percent of them, 
apparently, in the one--in this immediate area, the Potomac. 
OK.
    Well, that's probably a good segue to the next panel, Mr. 
Chairman.
    Chairman Tom Davis. Thank you.
    Let me just ask one last question. This has been mostly 
upstream in the West Virginia area and less downstream; is that 
right? Have we sampled fish downstream as well?
    Ms. Haseltine. I think we're just starting to sample fish 
further downstream, and you have some of the initial results.
    Chairman Tom Davis. OK. Thank you.
    Mr. Van Hollen. Mr. Chairman, I thought I saw something 
about the presence of this problem around the Woodrow Wilson 
Bridge. Was I wrong about that or did--I thought I saw a report 
about that.
    Ms. Haseltine. Yeah, that was one of the sites. Right.
    Mr. Van Hollen. Thank you.
    Chairman Tom Davis. OK. This is obviously an important 
issue, not only for D.C. and the Potomac, so we're going to 
followup with your progress on the screening program and the 
work of all of the Federal agencies to reduce these risks to 
human and wildlife health.
    So I'm going to thank this panel, and we'll discharge you, 
and we'll take about a 3-minute recess as we move to our next 
panel. Thank you all very much.
    [Recess.]
    Chairman Tom Davis. The committee will come back in. I want 
to thank you all for staying with us.
    We have on the second panel Mr. Charles Murray, the general 
manager of the Fairfax Water. Thank you for being here. Mr. 
Andrew Brunhart, the general manager of Washington Suburban 
Sanitary Commission. Thank you. Mr. Thomas Jacobus, general 
manager of the Washington Aqueduct. Thank you for being with 
us. Mr. Joseph Hoffman, the executive director of the 
Interstate Commission on the Potomac River Basin. Thank you. 
Mr. Ed Merrifield, executive director with the Potomac 
Riverkeepers, and Mr. Erik Olson, the director of the Advocacy 
for the Natural Resources Defense Council. I know you're no 
stranger to this committee.
    I want to thank all of you for being here. You know it's 
our policy we swear you in before you testify. So, if you 
would, just rise with me.
    [Witnesses sworn.]
    Chairman Tom Davis. You've all heard the first panel. Your 
entire statements are in the record. We'll give you 5 minutes 
to kind of sum up or say whatever you'd like to say, and then 
we'll move to questions.
    Mr. Murray, we'll start with you. Thank you, and Fairfax 
Water for all the great things you're doing. Thanks.

 STATEMENTS OF CHARLES MURRAY, GENERAL MANAGER, FAIRFAX WATER; 
 ANDREW D. BRUNHART, WASHINGTON SUBURBAN SANITARY COMMISSION; 
 THOMAS JACOBUS, GENERAL MANAGER, WASHINGTON AQUEDUCT; JOSEPH 
   HOFFMAN, EXECUTIVE DIRECTOR, INTERSTATE COMMISSION ON THE 
    POTOMAC RIVER BASIN; ED MERRIFIELD, EXECUTIVE DIRECTOR/
    RIVERKEEPER, POTOMAC RIVERKEEPER, INC.; AND ERIK OLSON, 
    DIRECTOR OF ADVOCACY, NATURAL RESOURCES DEFENSE COUNCIL

                  STATEMENT OF CHARLES MURRAY

    Mr. Murray. Thank you, Mr. Chairman and members of the 
committee. Thank you for the opportunity to present comments at 
this important hearing. My name is Charles M. Murray, and I am 
the general manager of Fairfax Water, Virginia's largest 
drinking water utility.
    Fairfax Water is a nonprofit public water authority 
governed by a 10-member citizen board of directors who are 
appointed by the Fairfax County Board of Supervisors. Fairfax 
Water provides retail or wholesale service to nearly 1.5 
million people in the northern Virginia communities of Fairfax, 
Loudoun and Prince William Counties, the city of Alexandria, 
the town of Herndon, Fort Belvoir, and Dulles Airport. Fairfax 
Water operates state-of-the-art water treatment plants on both 
the Potomac and Occoquan Rivers.
    As a large drinking water utility, we are regulated under 
the Safe Drinking Water Act through the Environmental 
Protection Agency. As with all community water utilities, 
Fairfax Water is dependent upon the U.S. Environmental 
Protection Agency [EPA], to set standards protective of public 
health through the resources provided by Congress and the Safe 
Drinking Water Act. In Virginia, the Virginia Department of 
Health has been delegated regulatory authority for drinking 
water utilities. I'm proud to report to you that Fairfax Water 
meets all Federal and State drinking water regulations, and has 
never had a violation of any maximum contaminant level. In 
fact, Fairfax Water takes pride in not only meeting these 
regulations but in surpassing regulatory requirements for 
producing top-quality and aesthetically pleasing water.
    You've asked me today to address my awareness and concern 
regarding a recent USGS study and a subsequent article in the 
Washington Post discussing egg-bearing male bass fish found in 
the Potomac River. Unfortunately, the USGS has not yet shared 
the report referred to in the Post article, so I cannot comment 
on it. What I can speak to are three things: My personal 
philosophy on the profession of drinking water treatment, 
Fairfax Water's activities in the National Capital Region to 
protect the Potomac River Watershed, and Fairfax Water's 
participation in advancing the science associated with 
understanding endocrine disruptors.
    Mr. Chairman and members of the committee, you're dedicated 
to serving the people of the United States in the best way 
possible. We at Fairfax Water are similarly committed to 
serving our customers. A statement that hangs on my office 
wall, written by a former executive director of the American 
Water Works Association, captures the importance of our work, 
and I'd like to share it with you now.
    ``We are, all of us, water beings on a water planet. Water 
is life. Without it, all living things die. Our dependence on 
water is absolute; our psyches know this and signal us in 
myriad ways of water's elemental importance and significance. 
That is why we love the water and remember experiences 
associated with it. Of the earth's vast resources of water only 
a small fraction is fresh and drinkable. A few people among the 
globe's billions have been charged with the task of ensuring 
everyone else has a reliable supply of safe water. Supplying 
potable water is an essential human activity, a great 
responsibility, and a vocation of distinction,'' and those 
words were written by Jack Mannion.
    As you can see, with this philosophy in mind, it's with a 
sense of responsibility and commitment that I and the people of 
Fairfax Water perform our duties as the major northern Virginia 
drinking water provider.
    To that end, Fairfax Water is a founding partner--or a 
founding member of the Potomac River Source Water Protection 
Partnership that Mr. Grumbles referred to earlier. The 
Partnership is a voluntary organization of water utilities, 
State, interstate, and Federal partners whose representatives 
are dedicated to source water protection. The Partnership has 
identified endocrine-disrupting compounds [EDCs], as a priority 
issue, and the Partnership is following the latest research 
into which specific chemicals may be causing the endocrine-
disrupting effects on fish in the Potomac River.
    The short-term goals include defining and prioritizing EDCs 
based on a review of current knowledge and consultation with 
experts, assessing potential sources of EDCs in the Potomac 
River and identifying appropriate, best-management practices 
for their control. The long-term goal is to enhance local 
understanding of EDC identity, sources, distribution, possible 
human and ecological health effects, management practices to 
limit their presence in the environment, and methods of 
treatment and removal.
    In addition to the Potomac Partnership, Fairfax Water, 
along with many water utilities across the Nation, contributes 
to and participates in the activities of the American Water 
Works Association Research Foundation [AwwaRF]. AwwaRF is a 
member-supported, nonprofit organization that sponsors research 
to enable water utilities, public health agencies and other 
professionals to provide safe and affordable drinking water to 
consumers. AwwaRF is the research arm of the drinking water 
supply community. I serve on the Board of Trustees for the 
Foundation, and my utility, Fairfax Water, is a longtime 
investor in AwwaRF as are most of the water agencies in the 
greater D.C. area. AwwaRF operates a $30 million-a-year 
drinking water research program, and to date, AwwaRF has 
conducted 21 projects totaling about $5 million to specifically 
study the issue of endocrine disruptors. It is this research 
that will ultimately help lead us to understand the 
significance of endocrine disruptors in the aquatic 
environment.
    Finally, Mr. Chairman, I'd like to close by noting that 
AwwaRF is once again seeking funding from the U.S. Congress. 
AwwaRF is 80 percent funded by local drinking water utilities 
and research partnerships and 20 percent through the funding 
assistance from Congress, and I want to express my strong 
support for the $5 million AwwaRF funding request in the EPA 
Science and Technology account of the fiscal year 2007 Interior 
Appropriations bill.
    Thank you, Mr. Chairman. I'd be happy to answer any 
questions.
    [The prepared statement of Mr. Murray follows:]

    [GRAPHIC] [TIFF OMITTED] T0340.031
    
    [GRAPHIC] [TIFF OMITTED] T0340.032
    
    Chairman Tom Davis. Thank you very much.
    Mr. Brunhart.

                STATEMENT OF ANDREW D. BRUNHART

    Mr. Brunhart. Thank you, sir. Chairman Davis and members of 
the committee, thank you for inviting me to appear today as 
well as we come together to discuss a shared problem worthy of 
attention.
    I am Andrew Brunhart, general manager of the Washington 
Suburban Sanitary Commission. I am also honored today to 
represent over 1,400 employees who are dedicated to provide 
safe, clean water to our communities in an environmentally and 
fiscally responsible manner. Now, this is just not a lofty 
statement for us that we dole out at annual meetings; this is 
our mission, and it drives the work we do day in and day out.
    Departing from my script a little bit, in my discussion 
with you today I think and I trust you will feel the passion 
amongst the three general managers at the table today, and you 
will find our remarks, independently prepared, remarkably 
similar. I have submitted a longer statement and attachments 
for the record, and I just want to sum up a few key points for 
you today.
    We are here today to talk about a very specific topic, ova 
pollution in the Potomac, but I believe the topic is part of a 
larger discussion that requires leadership at all levels of 
government and industry to resolve. What is the value of water 
in our society, and what legacy are we leaving our children in 
our rivers, streams, bays, and oceans?
    Being in the business of providing safe, clean water and 
treating what our communities send down the drains, I think 
about this question daily. I think about the existing science 
and technology we currently use to provide a service. Many in 
this country take that service for granted. The 20th century 
innovators ensured that most Americans can turn on the tap and 
receive clean water on demand. This is an achievement we should 
be proud of, and at WSSC, we have been an integral part of that 
legacy. Beginning with one of our founders, Abel Wolman, who is 
widely known as the father of modern sanitary engineering, WSSC 
employees have set standards that many around the world aspire 
to. We are committed to providing the best possible product to 
our 1.6 million citizens throughout Prince George's and 
Montgomery County, MD. Throughout our history of over 80 years, 
WSSC has never had a water quality violation. We consistently 
meet and exceed all drinking water standards.
    Yet we are not content with our past achievements. WSSC, 
working with our peers around the Nation and the world, look 
toward continuous improvements in science, technology, 
investments, research, and business practices to get better at 
what we do. As Mr. Murray mentioned, American Water Works 
Research Association and Foundation is very important to us in 
our industry, and WSSC is a founding member. We have 
contributed over $1.5 million to AwwaRF since 1983.
    In an ongoing effort to address this problem, the Chair of 
WSSC and I met with Congressman Van Hollen, gosh, almost a year 
ago, to discuss EDCs and the potential impact on human health. 
I would like to take this opportunity on the record to thank 
Congressman Van Hollen for his steadfast commitment to the 
environment and to his constituents. Thank you, sir.
    WSSC did not create this situation, but I assure you we are 
as committed as this committee and every panelist here today to 
work with all interested stakeholders to resolve it. Of course, 
government has and continues to play a critical role in the 
legacy we leave our children through a consistent commitment 
through leadership, focus and funding. That is why we are here 
today, to find solutions.
    Congress should play an important role, in addressing the 
required scientific research, but you should be wary of simply 
creating additional regulations to patch a problem. I believe 
the EPA possesses the necessary statutory authority and 
regulations to address this problem. What the EPA has been 
lacking is consistent funding from the Congress, and I'm 
mindful of the honorable representative from the EPA's comments 
earlier on funding. With this introduction and going quickly 
now, I would like to offer two suggestions I believe to be 
constructive, and urge the committee to consider them for 
possible action.
    First, a watershed restoration and congressional caucus 
should be created at the inception of the 110th Congress to 
serve as a real working group for all stakeholders. This group 
should include Members of Congress from across the Nation, 
water utilities and associations, environmental groups, 
agricultural groups, corporations, developers, pharmaceuticals, 
EPA, the Corps of Engineers, USGS, and the State governments. 
Congressional leadership will provide the focus in briefings, 
legislation development, funding considerations, and education. 
The goal should be to push the science and research forward to 
get us ahead of this curve rather than behind it.
    Second, Congress should restore funding to both the EPA's 
State and Tribal Assistance Grant Program [STAG] Program, and 
previous AwwaRF appropriations. Restored funding is critical to 
proactively address the science and research requirements to 
protect our water supply.
    While the EDC issue is a concern for water utilities, it is 
a major environmental issue worthy of serious national 
attention. We should ask ourselves the questions again. What is 
the value of water in our society, and what legacy are we 
leaving our children in our rivers, streams, bays, and oceans? 
I am fully confident that with continuous funding commitments 
from Congress and the EPA, along with investments made by 
industry leaders such as WSSC, we can push the science to 
understand this situation better. It is important that we 
create a forum like a congressional caucus where Members of 
Congress and their staffs and stakeholders can work through 
this issue together as you consider various policy options that 
have direct and indirect effects on EDCs in our waterways.
    Thank you, Mr. Chairman and the committee, for the 
opportunity.
    [The prepared statement of Mr. Brunhart follows:]

    [GRAPHIC] [TIFF OMITTED] T0340.033
    
    [GRAPHIC] [TIFF OMITTED] T0340.034
    
    [GRAPHIC] [TIFF OMITTED] T0340.035
    
    [GRAPHIC] [TIFF OMITTED] T0340.036
    
    [GRAPHIC] [TIFF OMITTED] T0340.037
    
    [GRAPHIC] [TIFF OMITTED] T0340.038
    
    [GRAPHIC] [TIFF OMITTED] T0340.039
    
    [GRAPHIC] [TIFF OMITTED] T0340.040
    
    [GRAPHIC] [TIFF OMITTED] T0340.041
    
    [GRAPHIC] [TIFF OMITTED] T0340.042
    
    [GRAPHIC] [TIFF OMITTED] T0340.043
    
    [GRAPHIC] [TIFF OMITTED] T0340.044
    
    [GRAPHIC] [TIFF OMITTED] T0340.045
    
    [GRAPHIC] [TIFF OMITTED] T0340.046
    
    [GRAPHIC] [TIFF OMITTED] T0340.047
    
    [GRAPHIC] [TIFF OMITTED] T0340.048
    
    [GRAPHIC] [TIFF OMITTED] T0340.049
    
    [GRAPHIC] [TIFF OMITTED] T0340.050
    
    [GRAPHIC] [TIFF OMITTED] T0340.051
    
    [GRAPHIC] [TIFF OMITTED] T0340.052
    
    [GRAPHIC] [TIFF OMITTED] T0340.053
    
    Chairman Tom Davis. Thank you very much.
    Mr. Jacobus, thanks for being with us.

                  STATEMENT OF THOMAS JACOBUS

    Mr. Jacobus. Chairman Davis and members of the committee, 
thank you for the opportunity to be here today. I am Tom 
Jacobus, general manager of the Washington Aqueduct.
    The Washington Aqueduct operates two water treatment plants 
and other facilities that provide water to its wholesale 
customers. These customers are the District of Columbia, 
Arlington County and the city of Falls Church. Falls Church 
further serves an area of Fairfax County and the town of 
Vienna. Washington Aqueduct is owned and operated by the U.S. 
Army Corps of Engineers.
    All of the water treated at the Dalecarlia and McMillan 
plants is withdrawn from the Potomac River either at Great 
Falls or at Little Falls. Washington Aqueduct's principal focus 
is on producing safe drinking water. This means that we pay 
very strict attention to meeting current regulatory standards, 
and it also means that we are looking to the future to ensure 
that treatment operations are always protective of the public 
health.
    A few examples of what we do are we participate in EPA's 
ongoing evaluation of unregulated drinking water contaminants. 
We are an active participant in both the regional and national 
groups whose purpose is to advance the science of water. We 
contribute to the work of the American Water Works Association 
Research Foundation by direct funding and participating in 
research projects. Our engineers and scientists prepare 
technical papers and attend conferences to ensure we are 
current with industry technology and regulatory developments. 
Additionally, we have contractual relationships with nationally 
renowned consultants in the field of water treatment. We use 
those consultants to help us evaluate future treatment 
operations.
    We are certainly aware of the reports of the fishermen and 
scientists in the Potomac River basin finding sexually 
abnormal, male smallmouth bass, and this phenomenon is not 
limited to the Potomac River Basin. Our engineers and 
scientists have been keeping abreast of the research into 
endocrine-disrupting chemicals. We believe that our 
participation with research, the research and water industry 
groups and our collaboration with EPA in support of their 
contaminant candidate listing are very effective ways to be 
involved in this issue. We will continue our involvement in the 
research of emerging contaminants, and will be prepared to take 
necessary steps to modify the treatment process to comply with 
any regulations that come from the results of the ongoing 
scientific investigations.
    I'll close these remarks by saying that Washington Aqueduct 
is also one of the members of the Potomac River Basin Drinking 
Water Source Protection Partnership. Two of the goals of the 
Partnership are, first, to maintain a coordinated dialog 
between water suppliers and government agencies and 
nongovernment agencies, people like represented here at the 
table here today and like the panel before us, people who are 
involved with source water protection, and second, we 
coordinate approaches to water supply protection measures in 
the Potomac River Basin. I think that these are both very 
important aspects of a partnership that has been developed by 
people locally and regionally here who are aware of the 
endocrine disruptor issue and other issues that face the--that 
give us challenges in the water treatment business.
    So I thank you for the opportunity to be here today, and 
I'm looking forward to answering any questions the committee 
may have.
    [The prepared statement of Mr. Jacobus follows:]

    [GRAPHIC] [TIFF OMITTED] T0340.054
    
    [GRAPHIC] [TIFF OMITTED] T0340.055
    
    [GRAPHIC] [TIFF OMITTED] T0340.056
    
    [GRAPHIC] [TIFF OMITTED] T0340.057
    
    Chairman Tom Davis. Thank you very much.
    Mr. Hoffman.

                  STATEMENT OF JOSEPH HOFFMAN

    Mr. Hoffman. Thank you, Mr. Chairman and members of the 
committee. I greatly appreciate the opportunity to be with you 
today to testify before this committee on this issue.
    I'll try to focus my summary comments of my written 
presentation on four areas: The roles of the Interstate 
Commission on the Potomac River Basin [ICPRB]; the Potomac 
Drinking Water Source Protection Partnership, which we've heard 
about, a role that ICPRB takes as coordinator to address legacy 
pollution caused by polychlorinated biphenyls [PCBs], that are 
showing up in the Potomac River. I'll use that as an example of 
one way that ICPRB helps in this issue, and then I'll try to 
give you a brief synopsis of some of the issues surrounding 
emerging contaminants.
    ICPRB, I'm the executive director. My name is Joseph 
Hoffman. It was created in 1940 by an interstate compact that 
Congress ratified. We have five signatories, the States of 
Virginia, Maryland, West Virginia, Pennsylvania, as well as the 
District of Columbia. Federal participation on the Commission 
is through three individuals appointed by the President as 
Federal commissioners. The Commission is non-regulatory. We 
address water quality and quantity issues from a watershed 
perspective. Our major functions are to provide sound science 
needed by our member jurisdictions for water resource 
decisionmaking. We want to provide leadership for cooperative 
efforts that our member jurisdictions have related to water 
resources. We want to facilitate opportunities and forums to 
address significant water issues.
    Let me first take a brief time to discuss the Potomac 
Drinking Water Source Protection Partnership, which was begun 
in 2004 as a voluntary organization. It involves us with the 
three water utilities present at the table today as well as a 
number of other government agencies, including our State 
members and several counties. Trying to work to safeguard both 
public health and the environment, to date 19 organizations/
agencies of the utilities and the States have joined this 
partnership.
    The Potomac Basin is home to 5.8 million people who rely on 
the rivers and the groundwater for our drinking water supplies. 
Activities upstream of water supply sources--intakes, 
groundwater recharge areas--can and do introduce a variety of 
contaminants into the water sources by relying not just on the 
treatment plants that are out there but on multiple barriers to 
contamination created by a variety of watershed protection 
activities and efforts the Partnership seeks to enhance 
drinking water quality and minimize risk to public health.
    We've got a number of work groups in this group. The first 
that was created, and the one that's really been active is the 
Emerging Contaminants Work Group, that tracks and reports on 
newly identified threats posed to the river. This partnership 
and this work group conducted a workshop in September 2005. It 
focused on emerging contaminants. We also have a pathogens work 
group, an early warning work group. I'm trying to illustrate to 
you today the value of these coordinated efforts on taking care 
of our water supply.
    Funding for the Partnership has been varied. We've gotten 
some support out of EPA. We've gotten some support from the 
utilities and the States, but it takes a variety of funding 
arrangements to make this thing happen.
    I mentioned about PCBs. The ICPRB is serving as the 
technical and coordinating resource for the District of 
Columbia, Maryland and Virginia as well as for the EPA on 
trying to come up with some answers on PCBs in the Potomac. 
We're serving to ensure that we get one TMDL created for this 
interstate body of water we have called the ``Potomac.''
    Emerging contaminants are of concern for us. They're a 
concern for our drinking water. These contaminants are not 
regulated. They are not established yet as we've heard earlier. 
Groundwater sources need to be a concern and need to be 
considered as we go into expanded monitoring, which is 
essential to be able to tie down these emerging contaminants.
    The States are doing things. For example, the Virginia 
Department of Game and Inland Fisheries and the Department of 
the Environment and West Virginia's Division of Natural 
Resources and the Department of Environmental Protection are 
addressing some of the concerns upstream in the basin. We don't 
have answers yet. We had a question earlier. Advisories do not 
exist for these emerging contaminants in the waterways nor in 
the fish consumption. They do exist for mercury and PCBs.
    ICPRB can play a role. We've been around for 66 years as a 
body that has been pulled together by our States and the 
Federal Government to work on some of these issues.
    I'll close there. My full statement is in the record. I'll 
certainly look forward to questions at a later point in the 
panel. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hoffman follows:]

    [GRAPHIC] [TIFF OMITTED] T0340.058
    
    [GRAPHIC] [TIFF OMITTED] T0340.059
    
    [GRAPHIC] [TIFF OMITTED] T0340.060
    
    [GRAPHIC] [TIFF OMITTED] T0340.061
    
    [GRAPHIC] [TIFF OMITTED] T0340.062
    
    [GRAPHIC] [TIFF OMITTED] T0340.063
    
    [GRAPHIC] [TIFF OMITTED] T0340.064
    
    [GRAPHIC] [TIFF OMITTED] T0340.065
    
    [GRAPHIC] [TIFF OMITTED] T0340.066
    
    Chairman Tom Davis. Thank you very much.
    Mr. Merrifield.

                   STATEMENT OF ED MERRIFIELD

    Mr. Merrifield. Mr. Chairman and members of the committee, 
on behalf of Potomac Riverkeeper, thank you for the opportunity 
to present this statement to the committee. My name is Ed 
Merrifield, and I'm executive director and riverkeeper.
    Potomac Riverkeeper's mission is to protect and restore 
water quality on the Potomac River and its tributaries through 
citizen action, education and enforcement. We have been 
actively following the problem of fish intersex since it was 
first uncovered in our watershed by the U.S. Geological Survey 
in 2003. At that time, scientists were trying to determine the 
cause of fish kills 230 miles upstream from Washington, DC, 
when they discovered ovaries in male fish testes. The Potomac 
Riverkeeper played a role in educating the public about the 
problem by providing information to the Washington Post's 
front-page story on intersex fish in October 2004. Other 
stories followed, but because the problem was distant from the 
Washington, DC, area and because the focus was on fish health 
and not human health, public interest in EPA action lagged. Two 
years later, the intersex issue is front-page news again, more 
so than when scientists first learned of the condition.
    The intersex fish are now turning up in the Potomac waters 
of our metropolitan area, renewing the conversation about what 
is causing such mutations and giving rise to a new question: 
``how does this affect the millions of people living in the 
watershed?'' Although water treatment facilities do a good job 
filtering the metropolitan area's tap water according to the 
EPA's standards, as we've heard, pollutants not tested for by 
water treatment plants do exist in the river. We know that low 
levels of caffeine and insecticides, such as DEET, and a 
chemical produced when the body breaks down nicotine have been 
found, and they are not regularly tested for by water treatment 
plants.
    While most scientists today are not ready to say which 
endocrine disruptors are responsible for intersex fish, the 
need to identify them is not new. The National Oceanic and 
Atmospheric Administration concluded in a June 2002 report that 
overt reproductive endocrine disruption in fish does not appear 
to be a ubiquitous environmental phenomenon. Rather, it appears 
to be associated with higher levels of contamination near 
pollution sources such as sewage treatment plants and 
industrial plants.
    In 1996, Congress created an EPA Office dedicated to 
researching endocrine disruptors. Ten years after its creation, 
the Office has yet to release significant information about 
which endocrine disruptors are responsible for intersex or what 
their risk is to metropolitan drinking water.
    A variety of sources emit potential endocrine disruptors 
into the river. Antibiotics that are excreted or otherwise 
flushed down toilets do not always get filtered before leaving 
treatment centers. Hormones from chicken waste make their way 
into water at poultry farms in Virginia and West Virginia. 
Stormwater runoff, which contains everything from pesticides 
and fertilizers to pharmaceuticals and personal care products, 
enter the water completely untreated as does raw sewage from 
combined sewer overflows.
    The issue at stake is the disposal of hazardous material 
and potentially hazardous material in a responsible fashion. We 
need to actualize the goals of the Clean Water Act and stop 
dumping waste, medications and chemical runoff into the river. 
We are already over 20 years behind the Clean Water Act's 
stated goal.
    Regarding human health, if scientists have not yet 
determined what pollutant is causing a reproductive health 
problem in fish in the Potomac, how can anyone say it is not in 
our drinking water? How can anyone say humans will not face a 
similar health problem? At best, as we've heard, all anyone can 
say is that they do not know if the endocrine disruptor effect 
on fish would affect humans. One cannot deny that there is 
potential threat to the millions of people who recreate, fish 
and draw their tap water from the Potomac River. We know there 
are reproductive problems happening to the fish and, as 
Congressman Van Hollen said, these affected fish are analogous 
to the canary in the coal mine. The fish are our warning.
    Potomac Riverkeeper, Inc., on behalf of all citizens living 
in the watershed, is here today to ask Congress, in cooperation 
with organizations like mine and the entire scientific 
community, to proactively work to save our Nation's river. With 
over 5 million people in the Potomac watershed, with 
Washington, DC, being a destination for millions of tourists, 
with minimal heavy industry in the watershed and with Members 
of Congress and their families living here much of the year, it 
makes sense to focus on the health of this river.
    To believe we cannot stop these pollutants from entering 
our water is to sound the death knell of the goal of the Clean 
Water Act. By working together, we can make the Potomac a model 
river, paving the way for cities and States around the Nation 
to clean up their water supply. With the full support and 
cooperation of the U.S. Government and its agencies, we can 
have a fishable, swimmable Potomac with plenty of clean, safe 
drinking water for all.
    Thank you again for hearing my testimony today, and I'll 
look forward to working with the committee in the future.
    [The prepared statement of Mr. Merrifield follows:]

    [GRAPHIC] [TIFF OMITTED] T0340.067
    
    [GRAPHIC] [TIFF OMITTED] T0340.068
    
    [GRAPHIC] [TIFF OMITTED] T0340.069
    
    [GRAPHIC] [TIFF OMITTED] T0340.070
    
    Chairman Tom Davis. Thank you very much.
    Mr. Olson, thanks for being with us again.

                    STATEMENT OF ERIK OLSON

    Mr. Olson. Thank you. Last and hopefully not least, I 
wanted to just summarize the testimony, but I'll just note I 
believe it was Congressman Moran who mentioned the Theo Coburn 
and Pete Meyers book that was excellent that predicted a lot of 
things that now seem to be coming true. I think most of what 
that book suggested is ending up to be a true concern more than 
10 years later.
    Now, these endocrine disruptors are chemicals that 
basically can mimic or interfere with Mother Nature's system, 
our hormone system, and we consider--these systems are 
extremely delicate, and it's sort of like a bull in a China 
shop. The chemicals are like a bull in a body's China shop. If 
you consider the fact that all of these--all of the body 
functions for behavior and sexual differentiation when an 
embryo is being created and sexual maturation during puberty 
and reproduction during adulthood, all of those are controlled 
during--with these hormones at extremely low levels--we're 
talking parts per trillion/parts per billion--that the body 
naturally controls these when we start introducing these 
chemicals. As I say, they're like a bull in a China shop. They 
can really wreak havoc.
    Why would a male fish have eggs in its testes? Why would 
some of these effects occur? Well, this is a very sure sign of 
exposure to some of these endocrine disruptors. In fact, the 
EPA has a proposed screening test, which isn't yet required 
which I'll get to, that actually uses this very kind of effect 
in order to evaluate whether something is an endocrine 
disruptor. So, clearly, we've got a problem here.
    What in the Potomac is causing this? I don't think anyone 
can say for sure. Certainly, we're finding, as was mentioned 
earlier, the pesticide atrazine, the pesticide simazine and 
some other industrial chemicals in the water in the Potomac. 
We're not sure exactly which ones might be causing this effect, 
but certainly we've got an enormous amount of pesticide runoff. 
We have detergents and cosmetics coming out through sewage. We 
have concentrated animal feeding operations upstream, way 
upstream very often, and we have other polluters. Luckily, we 
don't have heavy industry like they do in many other parts of 
the country, but we do have endocrine disruptors in the Potomac 
water and in the river system.
    Now, if we don't have measurable levels, if we're not sure 
what the chemicals are, does that mean there's not a problem? 
It does not. First of all, some of these effects occurred at 
extremely low levels, some of which can't even be detected in 
the water. Second, we don't really have a system to detect and 
analyze endocrine disruptors in our water supplies.
    There's something I wanted to highlight also about 
endocrine disruptors that's extremely unusual. Many of us 
learned back in college that the dose makes the poison for a 
toxic chemical. We learned you have to have a very high dose to 
get an effect. Endocrine disruptors are turning a lot of that 
on its head. What's important is the timing. What I mentioned 
in the testimony is some of our scientists think that a lot of 
our thinking about toxins is going to change as a result of 
these new data. Some studies just published within the last 
year show that exposure on a single day to a toxic chemical, to 
one of these endocrine disruptors, can cause these adverse 
effects such as small testes, female nipples in a rat, a birth 
defect in the penis called ``hypospadias.'' Again, the bull in 
the China shop is operating. A single day of exposure can cause 
these kinds of effects at very low doses, so we don't really 
fully understand all of these effects, but we know that they're 
issues.
    What are the public heath impacts of drinking this water or 
of eating the fish? Mr. Cummings asked that. Several others 
have asked these questions. I don't think anyone can answer 
absolutely for sure, but first of all, we do know several 
things. One is that chemicals that are estrogenic or endocrine 
disruptors in fish are extremely likely to be estrogenic or 
endocrine disruptors in humans just as they are in polar bears, 
just as they are in panthers, just as they are in alligators, 
in mink, in birds. We're seeing similar effects, and the reason 
for that is simple, that Mother Nature, as she finds a way that 
a hormone works well in a lower form of life, has conserved 
that. So the same types of hormones are very conserved, the 
biologists would say, from lower forms of life all the way up 
to man.
    Second, a lot of these chemicals that can feminize male 
fish are likely to feminize mammals as well as other species, 
and obviously, we're mammals, so we are concerned about that.
    And third, something that's clearly estrogenic is in the 
Potomac. We don't know if it's in the drinking water. We don't 
know if it's in the sediments, if it's in the fish, in the food 
chain, but it's somewhere in there and we sure as heck ought to 
get some kind of an idea about that.
    I notice that there's bottled water on the table in this 
committee room. It used to be, I remember in testifying in past 
years, that there was tap water, and I just wonder if there's 
anything going on here? Clearly, a lot of people are worried 
about their water supply. A lot of people--I see Mr. Moran is 
drinking a soda, but I think that a lot of us are worried about 
water supplies. A lot of us are worried about what this means, 
and we just aren't absolutely sure, but we do know that there's 
something going on. Something has to be done about it.
    Some of these--the fact that fish live in the water and, 
therefore, expose their entire lives, again, doesn't 
necessarily mean that we're safe because we only drink water a 
few times a day or because we only eat fish once in a while. 
The people we're most worried about--and our scientists have 
looked at this for more than a decade--are pregnant women and 
their fetuses. These are the folks that are at greatest risk. 
So I might be perfectly happy to drink the water or to eat a 
fish or something along those lines, but I will tell you that I 
would certainly have concerns, if my wife were pregnant or if a 
family member were pregnant, about eating a fish that is coming 
from an area that has been feminized, where the fish are being 
feminized or drinking water that is coming from an area that 
may have these contaminants in it that we haven't yet 
identified. So there clearly are health concerns.
    And the last point I want to make is what is EPA doing 
about this, and unfortunately, they're not doing very much. 
Congress was very clear 10 years ago in the Food Quality 
Protection Act--and I hope we get a chance to pursue this--to 
require EPA within 3 years to develop this program. As has been 
brought out, not a single chemical has been tested under this 
program. Mr. Grumbles said earlier that there have been efforts 
to test under other programs. There have been a few efforts to 
test a few chemicals, but there is no systematic program to 
test for endocrine-disrupting effects, and I will say that just 
in August of this year, a month and a half ago, the EPA says 
they completed the entire Pesticide Safety Review Program under 
the Food Quality Protection Act. They say they reviewed the 
safety of every pesticide tolerance, and they did not include 
any Endocrine Disruption Screening Program testing for any of 
those chemicals. So we went through a 10-year process to review 
the safety of pesticides. For not a single one of them were 
there any EDSP, or Endocrine Disruption Screening Program, 
tests done. That's of grave concern.
    What's the EPA going to do now? They say they're going to 
go back over the next 15 years and review the safety of all the 
pesticides that we're using in our food, in our water and so 
on. This is a serious problem and is something that needs to be 
done. Our testimony goes into some post solutions.
    I see my time is up, and I hope we get a chance to discuss 
some of those.
    [The prepared statement of Mr. Olson follows:]

    [GRAPHIC] [TIFF OMITTED] T0340.071
    
    [GRAPHIC] [TIFF OMITTED] T0340.072
    
    [GRAPHIC] [TIFF OMITTED] T0340.073
    
    [GRAPHIC] [TIFF OMITTED] T0340.074
    
    [GRAPHIC] [TIFF OMITTED] T0340.075
    
    [GRAPHIC] [TIFF OMITTED] T0340.076
    
    [GRAPHIC] [TIFF OMITTED] T0340.077
    
    Chairman Tom Davis. Thank you very much. Let me start the 
questioning.
    Mr. Murray, I understand--you mentioned--well, I understand 
that all drinking water utilities are regulated by the EPA with 
EPA standards. Can you tell us a little bit more about these 
standards? Are these standards limited to maximum contaminant 
levels or they also prescribed testing and filtration methods? 
Could you give us a sense to the length of time between 
promulgation by the EPA of new standards for the production of 
clean drinking water and the steps in between?
    Mr. Murray. Let's start with the maximum contaminant. Let's 
see, the first part of the question was the drinking water 
standards and are they just maximum----
    Chairman Tom Davis. Are they just limited to maximum 
contaminant levels or are they prescribed testing and 
filtration methods?
    Mr. Murray. Yes. We have both standards for the treatment 
that we require to meet and maximum contaminant levels in the 
finished water; and, as Mr. Brunhart said, there are a number 
of contaminants that we monitor for that are not yet regulated 
but we monitor to provide information to the agency so as to 
develop those regulations.
    Chairman Tom Davis. So, you are way over and above your 
standards. You have your own standards even above the Federal 
standards.
    Mr. Murray. Yes. There are compounds that we are monitoring 
for that there are not MCLs established yet, but we are doing 
it as part of the unregulated contaminant monitoring rule which 
allows EPA to develop additional MCLs and standards.
    Chairman Tom Davis. What do you think? You have heard the 
testimony today about these, the mutant fish and everything 
else. Obviously, it gives you some concern and some hesitancy 
as you look through it. What is your take on it? I mean, does 
EPA appropriately describe and identify this, or are they 
behind the curve?
    Mr. Murray. I sympathize with the complexity of the problem 
and the difficulty of establishing standards. We have been 
working with EPA and USGS to try to test some of these 
screening methodologies that they have been talking about. Mr. 
Olson referred to one of them. It is an estrodial equivalence, 
and we have been working with them on attempting to see if that 
is a good measure of endocrine disruptors.
    It is a complex issue. All of the information we have from 
the research to date would state that it is highly unlikely 
that it is a human health issue in drinking water, but we 
certainly, like the committee and everyone else, are very 
anxious for more information and more research and we want to 
do the right thing.
    Chairman Tom Davis. OK. Mr. Olson, let me just ask, if I 
understand you correctly, you are saying we are currently not 
testing for chemicals causing endocrine disruption, but at the 
same time we haven't figured out what they are. How do we get 
from A to B? What do we need to be doing?
    Mr. Olson. Well, there are some tests that are used to 
determine whether something is an endocrine disruptor, and 
those are not routinely required for pesticides or for any 
other chemical. Where EPA has fallen down, in our view, is that 
they haven't routinely required them. They haven't issued this 
endocrine disruptor screening program requirement. So it is 
sort of hit or miss what is tested.
    We have 80,000-plus chemicals. The vast majority of them--
I'll just hazard a guess--99 percent plus, have never been 
tested for these effects. So when we hear about meeting EPA 
standards--I used to work at EPA. Love the agency. It is a 
great place. But the EPA standards are kind of out of date, and 
they don't really deal with a lot of the problems.
    And let me just give one example: EPA, to my knowledge, has 
not adopted a single new drinking water standard that wasn't 
ordered by Congress since 1979. Now that is a serious problem. 
What we have is Congress having to step in and tell EPA what to 
do.
    Chairman Tom Davis. When Congress sets a standard, that is 
scary, right?
    Mr. Olson. Congress doesn't really set the standard. They 
just say, guys, it's been an awfully long time. Set a standard, 
for God's sake, for these chemicals; and that is what's been 
happening. Congress has to step in and say, set some standards. 
We heard about the contaminant candidate lists and all of these 
other proposals to move forward, but it's been 10 years and EPA 
still hasn't picked a new contaminant to regulate based on 
that.
    Chairman Tom Davis. And the key for us, of course, is we 
know there are contaminants in the river. The question is, do 
we get them all out in the purification process? And I think, 
Mr. Murray, you are confident that you are doing that, but you 
continue to look at this and Mr. Brunhart; is that correct?
    Mr. Brunhart. Let me add to that. In addition to what is 
required to be regulated, and we're doing testing for chemicals 
for EPA, we both run state-of-the-art laboratories and invite 
any Member to come and take a tour to see exactly how robust 
our laboratories are at testing and providing the data to EPA.
    I would add that we are, from WSSC's perspective, 
concerned, because environmental stewardship is one of our core 
values of what's going on with the wildlife. We are not alarmed 
for impact on human beings at this juncture, but there is a lot 
we don't know that essentially everybody before you today has 
reemphasized because we don't know the research or, over the 
course of time, the science on what could be 87,000 chemicals 
untested, as Congressman Van Hollen mentioned.
    If we knew if it was one or two chemicals--this is our 
passion. This is our business. We don't make a lot of money on 
what we do. We do it because we serve citizens. If we knew it 
was those chemicals, we would work in our industry to get them 
out of the source.
    One final comment because I know you have other questions. 
The reason I urge this to be considered at a national level is 
what is the engine to discuss the sources. The engine in water 
utility is AwwaRF, and we banded together to do some really 
interesting--nationally some miniscule studies that are 
bringing us forward as a utility and water industry. But 
there's many other industries that, in my view, should be 
banded together. There's EDCs in food, for example. And I could 
go on and on.
    But who's going to be that engine? In my view, Congress 
could show us some leadership in a caucus to bring us all 
together to really address this.
    Chairman Tom Davis. I think we will get some activity 
there.
    Mr. Murray, a lot of Fairfax water comes from the aqueduct. 
It doesn't come directly from the river. We have had no 
problems there, is that right, with the mutant fish?
    Mr. Murray. We have no evidence of a problem there, but, 
again, we are trying to advance the science that we know we are 
measuring for the right things. The limited testing that has 
been done on both the Potomac and the Occoquan at our treatment 
plants suggest that there isn't a significant concentration in 
the incoming water, and what we are measuring we are doing a 
good job of removing. So we are waiting for the science to 
catch up and allow us to refine that methodology and to give us 
more definitive answers on the health significance and 
concentration issues.
    Chairman Tom Davis. Thank you.
    Mr. Moran.
    Mr. Moran. Thanks very much, Mr. Chairman.
    This is fascinating but also a very scary subject.
    First of all, I did want one point of clarification. We 
have talked only about the feminization of male fish. Isn't 
there a masculinization of female fish? Doesn't that also 
occur? I don't know who wants to--somebody can confirm that. 
Isn't it just as prevalent?
    Mr. Merrifield. On the Ohio River, some fish were getting 
masculine characteristics. Female fish were getting masculine 
characteristics because of dairy farm chemicals that were going 
to the dairy farm. They had it very specifically. So it 
happens.
    Mr. Moran. So it happens to all of the sexes. This happens 
to be a situation that we are finding male fish with eggs in 
their testes.
    The one that troubled me particularly, and I was surprised 
that the woman from the U.S. Geological Survey didn't seem to 
be particularly familiar with, but when they did this test in 
the Potomac, apparently in the area that comes right out from 
the sewage treatment area that 70 percent--they weren't finding 
smallmouth bass but they found largemouth bass and 70 percent 
of them, the males, had eggs in their testes. So this was very 
widespread problem.
    What troubles me is the reason--I don't really have a lot 
of questions for this panel. You are doing your job. But you 
attempt to purify our water to the best you can, identify 
harmful chemicals and materials that could be harmful out of--
take those out of the water. But none of you are responsible 
for the research to determine which of those chemicals are 
harmful or particularly what compound of chemicals can be 
harmful, and very little research has been done, if any, on the 
compound of chemicals. So we may find individual chemicals are 
OK, but when they are thrown in the water with other chemicals, 
they create a much more toxic effect.
    I am very much concerned with regard to the 
intergenerational effect as well of some of these chemicals. I 
am recalling some of the things I read in the book by Theo 
Colburn in which it seemed to be--I pursued it and found that 
it was verifiable.
    One was the rats apparently have--it is a triangle, and 
they have six eggs, a female rat. And they were showing how 
thin the membrane between the various eggs is that they did the 
experiments. And it is not dissimilar from the human membrane 
when the fetus starts--begins development. They put--I remember 
one case they put in a male fetus, I guess, between two female, 
and the membrane was so porous in every case the male turned 
out to be gay, to have feminine characteristics. And then they 
did a disrupter test and they found to almost a hundred 
percent--I am digressing here a little bit, but that research 
seems to be done by private groups, not by governmental groups; 
and when it is done by private groups, it seems like there are 
always critics, particularly in the Federal Government. It 
says, well, this hasn't been confirmed, and so we really don't 
need to look at it, and we're doing--you know, we are studying 
it, and we have a process going. It is particularly irritating 
for EPA that for 10 years they have had a process going and 
have yet to actually test one single chemical under this 
endocrine disruption category.
    If you had your--this is a whole lot of introduction by way 
of asking my question--if you had your druthers, what would we 
be doing to make you more confident that you are able to do the 
job, you are responsible for carrying it out?
    Mr. Merrifield seems to----
    Mr. Merrifield. Yes. The thousands and thousands of 
chemicals we have that are in the environment, if Congress 
doesn't come up with a way of stopping them from going into the 
water, we will never be sure if our water, what is coming out 
of our taps, is completely safe, because there will always be 
more chemicals to be checked and more fascinating stories that 
you have been telling about what can happen. Somehow we have to 
get back to the basic, the Clean Water Act, to stop all of this 
pollution getting back into the water.
    Mr. Moran. The two things that I came away with from 
reviewing that literature--and, granted, it was 10 or 12 years 
ago--was the effect of the compounded chemicals which we know 
virtually nothing about, and then the vulnerability of the egg, 
the fetus, within a woman's womb. Once it gets in there, it can 
cause an intergenerational effect that we--I mean, it is almost 
impossible to find the causal factor two or three generations 
subsequently. And no research was--or no public research has 
been done on it, and that is what is so scary.
    I just don't feel as though this panel is being given the 
tools that you need to be able to carry out your job, which is 
really intensive research on these potential endocrine 
disruptors and related chemicals in terms of the public health.
    So I thank you for the panel. I don't know that you are the 
ones who should be answering these questions. I think that we 
are ill preparing you to fully carry out your job, but you all 
do a good job, in particular as private commentators as well. 
Thank you for all your volunteer work and oversight that you 
provided. Thanks.
    Chairman Tom Davis. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Let me thank all of the witnesses for their testimony.
    Mr. Brunhart, thank you for your leadership at WSSC, where 
I get my water; and thanks for your kind remarks and the 
recommendations that you made and others have made of how we 
can move forward here.
    If I can just ask the representatives who are tasked with 
the--responsible for providing the people in this region for 
safe drinking water, Mr. Murray, Mr. Brunhart and Mr. Jacobus, 
whether you are satisfied--this goes a little bit to Mr. 
Moran's question--whether you are satisfied that the EPA is 
moving as swiftly as it can and should with respect to doing 
the research in this area.
    Mr. Brunhart. Well, I will make two comments. As I think we 
are today just by talking about a very important issue, I have 
learned a lot. I think the pace, in my view, is too slow. I 
think that EPA has--does not have as much funding as they would 
need to step up to the large challenge.
    However, my personal concern is that when you have a large 
challenge, you incrementally address it and you try to 
prioritize and incrementally address the highest priorities, 
and I don't see that happening in the pace. That is my personal 
view.
    Mr. Van Hollen. Thank you.
    Any other comments from the others?
    Mr. Jacobus. I would say that I believe--I have confidence 
that EPA has the direction and the will and the understanding. 
As far as the pace, what Washington Aqueduct could do is we 
cooperate with programs to work on the contaminants list, to 
work on the unregulated studies. So we can provide it and work 
tirelessly to make sure the water we produce meets the 
regulations.
    We have confidence in the regulations. We understand there 
are emerging contaminants; and we, as a water utility, have a 
responsibility to work with science and regulations and think 
we are doing a good job of that in trying to help EPA get to 
where they want to be and where we all need to be to have a 
high degree of confidence that the new substances that could be 
coming into the water can be removed.
    But I would just say, in agreeing with Mr. Merrifield that 
it is very easy to--the treatment process for something that is 
not there is very simple. So if you can keep these contaminants 
out of the source water--in our case, the falling of the 
Potomac--that emphasis there is much easier to keep them out of 
the water than it is to devise treatment processes once they 
are in the water. So that is why all of us in the three 
utilities, together with our State and Federal and local 
partners, felt that this partnership locally would be a good 
idea and it has gotten started. It's been there for a couple of 
years, and we certainly have a commitment of energy and local 
resources.
    So I am encouraged--and there is a lot to be done, but I am 
encouraged and we are cautioned by the results of the science 
that we see and we want to do more.
    Mr. Murray. I want to answer two ways.
    First of all, I think EPA, as an agency, does a pretty darn 
good job of establishing MCLs, the process of establishing 
standards. I think that Mr. Moran captured it when he talked 
about the need for research. I spoke at some length about 
AwwaRF, a research foundation started by the water utilities. 
It was started years and years ago because there was an unmet 
need for research, and I think that says it all.
    Mr. Van Hollen. Thank you.
    My understanding is the research budgets in some of these 
areas are being cut back and the EPA is saying that, instead, 
the industry should be doing the research, which seems to me to 
get it entirely backward. This is a public health issue. This 
is research that should be done on behalf of the citizens.
    I think the partnership is a great vehicle, I think, for 
coming together and putting, you know, pressure and making 
recommendations on the EPA. So I encourage all of you--Mr. 
Hoffman, your organization is the chair of that, as I 
understand it, is that correct?
    Mr. Hoffman. We don't chair it. Basically, the 
administrator and coordinator try to pull together.
    We will note for you for the record that we have our annual 
meeting of the partnership coming up October 25th. We suggested 
in our testimony--the full testimony for this committee today 
the idea that we can play a much larger role in trying to pull 
together this issue for the Potomac River Basin. I think, at 
the same time set a pretty good model in place for the entire 
country to follow as additional areas start to be concerned 
about this or other water related issues. We certainly are 
available to do that.
    Unfortunately, we have only been able to devote a small 
portion of our budget to the endocrine disruptors and the 
emergent contaminants. However, it is one that we need to find 
a way to do some more things on.
    Mr. Van Hollen. I am pleased to hear that. Because, as Mr. 
Olson said and Mr. Brunhart said in their testimony, these 
chemicals tend to exhibit two chemicals: One is, they both said 
they don't exhibit conventional toxicological dose response 
characteristics in contrast to conventional contaminants. They 
may cause significant problems at very low levels. And the 
other issue is that they may have very powerful effects during 
the early stages of life, but the impact may be long term, and 
you may not be able to see them until quite farther down the 
road.
    Let me, if I can, finish with a question. Obviously, we 
want to deal with this at the source level, No. 1, but there is 
also, of course, the treatment level, and I guess my question 
is--I don't know if this is a class of chemicals or agents that 
would lend itself to a particular kind of treatment, that even 
before you do all of the studies on whether it is going to have 
negative impacts, whether there is some kind of treatment that 
can be used, assuming there would be a negative impact, that 
would not have a downside that would be able to address these 
issues.
    I have been told there is something called the ozone 
treatment, is one kind of treatment. Very expensive, but a 
treatment. There is another one, is granual activated carbon 
treatment. Are those things we should look at without reducing 
our efforts on the source side? Are those things that should be 
looked at on the treatment side? And what are the pluses and 
minuses of doing that?
    Mr. Brunhart. There is some evolving evidence on a study or 
two that activated carbon in combination with ozone can be 
somewhat effective. Fairfax is leading the way on that.
    And there is also evidence that ultraviolet light 
treatment, ultraviolet light, UV, coupled with hydrogen 
peroxide dosage can be as effective as activated carbon as 
well. WSSC is going to--the UV treatment in Fairfax has gone to 
activated carbon. In other words, we are both on the cutting 
edge in those regards, but we need much more science to tell us 
what should be the effluent and for what chemicals.
    Mr. Van Hollen. Would those techniques be effective?
    Mr. Murray. Yes, sir, it is. We did a survey, and 90 
percent of the big-city utilities do not use these more 
advanced treatments. That is obviously going to have to be the 
long-term direction that they go. We are not arguing for one 
specific treatment, but there are treatments now, advanced 
treatments, including the Fairfax County Water Authority 
treatment, that can be very effective at removing a wide class 
or wide array of contaminants. That plus pollution prevention 
has to be where we go.
    Chairman Tom Davis. Thank you.
    Let me thank this panel. I mean, we are just so pleased our 
local utilities are here today. They are willing to answer our 
questions so openly. We look forward to continuing to work with 
you, and we appreciate all of the work you and the other panels 
are doing to keep our water safe for human consumption and for 
wildlife. We will continue to pursue this matter.
    This hearing is adjourned.
    [Whereupon, at 3:30 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0340.078

[GRAPHIC] [TIFF OMITTED] T0340.079

[GRAPHIC] [TIFF OMITTED] T0340.080

[GRAPHIC] [TIFF OMITTED] T0340.081

[GRAPHIC] [TIFF OMITTED] T0340.082

[GRAPHIC] [TIFF OMITTED] T0340.083

[GRAPHIC] [TIFF OMITTED] T0340.084

[GRAPHIC] [TIFF OMITTED] T0340.085

[GRAPHIC] [TIFF OMITTED] T0340.086

[GRAPHIC] [TIFF OMITTED] T0340.087

[GRAPHIC] [TIFF OMITTED] T0340.088

[GRAPHIC] [TIFF OMITTED] T0340.089

[GRAPHIC] [TIFF OMITTED] T0340.090

[GRAPHIC] [TIFF OMITTED] T0340.091

[GRAPHIC] [TIFF OMITTED] T0340.092

[GRAPHIC] [TIFF OMITTED] T0340.093

[GRAPHIC] [TIFF OMITTED] T0340.094

[GRAPHIC] [TIFF OMITTED] T0340.095

                                 <all>

</pre></body></html>
